   THE UNITED STATES TRUSTEE
PROGRAM’S OVERSIGHT OF CHAPTER 7
  PANEL TRUSTEES AND DEBTORS

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 08-19
              March 2008
             THE UNITED STATES TRUSTEE PROGRAM’S
      OVERSIGHT OF CHAPTER 7 PANEL TRUSTEES AND DEBTORS

                               EXECUTIVE SUMMARY

      The Bankruptcy Act of 1978 created the United States Trustee
Program (USTP) as a component of the Department of Justice (DOJ) and
charged the USTP with the responsibility for supervising the administration
of bankruptcy cases and trustees, including Chapter 7 panel trustees.
Chapter 7 panel trustees are usually attorneys or accountants who are
appointed by the USTP to administer bankruptcy cases filed under Chapter 7
of the U.S. Bankruptcy Code. 1

       As of June 2007, there were 1,140 Chapter 7 panel trustees operating
nationwide, who processed a total of 484,162 Chapter 7 filings. Annually,
Chapter 7 panel trustees are responsible for collecting over $2.7 billion in
funds through the liquidation of debtors’ estates, and distributing those
funds to creditors, in accordance with the Bankruptcy Code. Given the
significant dollar amounts involved, the risks associated with the handling of
cash and other liquid assets, and the inherently adversarial relationship
between debtors and creditors, the integrity of the bankruptcy process relies
on the effectiveness of panel trustees.

      Passage of the Bankruptcy Abuse Prevention and Consumer Protection
Act of 2005 (BAPCPA) on April 20, 2005, brought significant changes to the
bankruptcy industry and created additional responsibilities for the USTP
especially with regard to debtor oversight. Among the more significant
changes was the implementation and monitoring of a screening process for
all debtors filing for protection under Chapter 7 and Chapter 13 of the
Bankruptcy Code.

       Chapter 7 bankruptcy filings peaked in 2005 when they reached
1.3 million. After the implementation of BAPCPA requirements, Chapter 7
filings dropped to 833,000, and in 2007, Chapter 7 filings dropped even
lower to 484,000. The table below shows the total number of Chapter 7 and
13 filings since 2002. 2


       1
          Bankruptcy under Chapter 7, also referred to as the “liquidation” Chapter, results
in a debtor’s non-exempt assets being reduced to cash by the panel trustee and distributed
to creditors of the estate after administration expenses are paid. In most cases, the debtor
then obtains a discharge of virtually all pre-bankruptcy debts.
       2
         Under Chapter 13, debtors file a repayment plan with the court under which they
agree to pay their debts over a period of usually 3 to 5 years. In these cases debtors obtain
discharges from their debt upon completion of the repayment plan.


                                            -i-
                                CHAPTER 7 AND 13 FILINGS FOR
                              FISCAL YEARS 2002 THROUGH 2007


             2,000
             1,800




                                                                                                     1,776
             1,600




                                                         1,651




                                                                               1,608
             1,400                 1,536




                                                                                       1,346
 Thousands




             1,200
                                           1,177




                                                                 1,154




                                                                                                                         1,106
             1,000
                     1,084




              800




                                                                                                             833




                                                                                                                                          795
              600
              400




                                                                                                                                    484
                                                   474
                             451




                                                                         454




                                                                                               429




                                                                                                                                 311
              200




                                                                                                                   273
                0
                     FY 2002               FY 2003               FY 2004               FY 2005               FY 2006             FY 2007
                                                           Quantity of Chapter 7 Filings
                                                           Quantity of Chapter 13 Filings
                                                           Total
Source: EOUST

      The USTP consists of the Executive Office for United States Trustees
(EOUST), which is led by a Director who oversees 21 United States Trustee
Regions each headed by a United States Trustee (UST). Within the 21
regions are 95 field offices each headed by an Assistant United States
Trustee (AUST). The Director acts under authority delegated by the
Attorney General to provide day-to-day policy, legal direction, and
coordination to the regional offices. USTs are DOJ employees appointed by
the Attorney General and are responsible for supervising the administration
of bankruptcy cases and panel trustees within their region.

OIG Audit Approach

      The objectives of this Office of the Inspector General (OIG) audit were:
(1) to determine if the USTP is providing adequate monitoring and oversight
of Chapter 7 panel trustees, and (2) to assess the USTP’s compliance with
requirements of the BAPCPA with regard to implementation of the means




                                                                 - ii -
test and debtor audits. 3 We did not review other requirements of the
BAPCPA, including the USTP’s implementation of credit counseling and
debtor education because the Government Accountability Office (GAO) has
recently reviewed these issues. 4

      We conducted our audit work at EOUST headquarters in Washington,
D.C., where we interviewed officials involved with panel trustee and debtor
oversight; reviewed pertinent policies and procedures; and analyzed reports,
memoranda, and other documents related to the oversight process. We also
reviewed the process of awarding contracts to certified public accountants
(CPA) for both panel trustee and debtor audits, and we examined the most
recent contracts that were awarded, with a specific emphasis on the
statements of work. Finally, we compared the recent CPA audit reports with
previous Chapter 7 audits issued by the OIG.

      In addition to our work at EOUST headquarters, we conducted site
work at regional offices in Cleveland, Ohio; Los Angeles, California; San
Francisco, California; and Seattle, Washington. At the regions, we
interviewed the U.S. Trustees, Assistant U.S. Trustees, bankruptcy analysts
and attorneys, and other field staff. We also examined audits and field
examinations of panel trustee operations and reviewed files to determine
whether adequate follow-up was performed to document corrective action
taken on deficiencies identified in audits and field examinations. In addition,
we examined files to determine whether the required panel trustee interim
report reviews were performed. With regard to debtor oversight, we
examined debtor audits that included material misstatements in order to
determine whether appropriate follow-up procedures were followed. We also
assessed the means testing process for debtor bankruptcy filings to
determine whether means testing was being performed in accordance with
the BAPCPA. 5


       3
          Means testing refers to the process through which the USTP reviews and, if
necessary, verifies the information provided by the debtor in order to make a determination
whether the debtor qualifies for relief under Chapters 7 or 13 of the bankruptcy code.
Debtor audits are performed by certified public accountants (CPA) to determine the
accuracy, veracity, and completeness of debtors’ petitions, schedules, and other information
that the debtor is required to provide in cases filed under Chapters 7 or 13.
       4
         U.S. Government Accountability Office, Bankruptcy Reform, Value of Credit
Counseling Requirement is Not Clear, GAO-07-778T, May 1, 2007, found that the BAPCPA
had been implemented as required. However, the GAO also found that it is not possible to
determine if debtors benefited from credit counseling and debtor education because there is
no mechanism in place to track outcomes.

       5
        Appendix I contains further description of our audit objectives, scope and
methodology.


                                           - iii -
Results in Brief

       We found that the USTP’s system of audits and reviews was adequate
to monitor Chapter 7 panel trustees. However, from FYs 2004 through 2007
we noted that many field examinations were not conducted in a timely
manner. USTP policy requires that a panel trustee receive a field
examination or CPA audit every 4 years.6 We found that several panel
trustees did not receive any on-site review of their work for up to 8 years.
This lack of timely oversight increases the risk that poor performance or
misconduct may be left unchecked and jeopardize the integrity of the
bankruptcy system.

       To assess the USTP’s compliance with certain provisions of the
BAPCPA, we also reviewed the USTP’s implementation of means testing and
debtor audits. We conducted a sample review of completed means tests and
also observed and documented means tests being performed at UST field
offices. Based on our review, we concluded that the USTP had adequate
controls in place for Chapters 7 and 13 bankruptcy filings. Similarly, we
found that debtor audits by contract CPA firms were being conducted in
accordance with the BAPCPA. However, we noted that the USTP’s efforts to
achieve compliance with the BAPCPA’s means testing requirement is
resource intensive. Should bankruptcy filings increase significantly and
approach their pre-BAPCPA levels, the amount of resources required to
maintain means testing compliance may significantly affect the USTP’s ability
to provide timely and comprehensive oversight of other panel trustee
operations.

      In our report, we make four recommendations to assist the EOUST in
implementing USTP policy and complying with BAPCPA requirements. Our
recommendations include ensuring that panel trustees undergo CPA audits
or UST field examination every 4 years, as required by EOUST policy, and
that the EOUST continue to work with the Administrative Office of the United
States Courts (AOUSC) to implement automated bankruptcy forms. The
remaining sections of this Executive Summary describe in more detail our
audit findings.

Oversight Regimen and Reforms

      In conducting our audit, we focused on the oversight regimen
established by the USTP, including:




       6
         CPA audits are required to be conducted every 8 years, while field examinations
are required to be conducted 4 years after every CPA audit.


                                          - iv -
     •   CPA Audits and Field Examinations. Although similar in scope
         and methodology, field examinations are focused more on the
         trustee’s case administration, whereas CPA audits provide a greater
         emphasis on the trustee’s internal controls. In CPA audits, an
         independent CPA conducts an on-site review of a panel trustee’s
         operations. Field examinations are performed by UST field staff.
         Both CPA audits and field examinations result in an opinion
         regarding the panel trustee’s ability to safeguard bankruptcy case
         assets. The opinion rates the trustee’s practices and procedures in
         one of three categories: adequate; adequate, except for certain
         listed deficiencies; or inadequate because of certain listed
         deficiencies (see Appendix VII for a list of possible deficiencies).
         CPA audits and UST field examinations are to be conducted on a
         rotating basis every 4 years.

     •   Annual Trustee Interim Report Reviews. A trustee interim
         report review assesses the trustee’s activities and accomplishments
         during the reporting period. Conducted annually at the regional
         UST office, the trustee interim report review evaluates the panel
         trustee’s completeness in reporting financial information on all asset
         cases, summarizes reported cases, provides case administration
         analysis, and evaluates the accuracy of case and asset information
         reports. The trustee interim report review is not performed in years
         in which an audit or a field examination is conducted.

     •   Biennial Trustee Performance Reviews. Trustee performance
         reviews do not involve on-site work, but are performed by UST field
         staff who document the panel trustee’s performance during the
         review period. The review includes an evaluation in each of the
         trustee’s areas of responsibility, such as trustee reporting,
         performance at the meeting of creditors, and securing estate
         property. The final results are communicated to the panel trustee.

     Three major reforms came out of the 2005 BAPCPA that create other
responsibilities for the USTP:

     •   Means Testing. Means testing prevents debtors who can repay
         their creditors from being discharged from their debts under
         protection of the Bankruptcy Code. Means testing is the process
         through which the USTP reviews and if necessary verifies the
         information provided on the debtor’s Statement of Current Monthly
         Income and Means-Test Calculation (SCMI), debtor’s bankruptcy
         petition, and supporting schedules to make a determination as to
         whether the debtor qualifies for relief under Chapters 7 or 13 of the



                                     -v-
           bankruptcy code. 7 If filing under Chapter 7 and repayment is
           deemed possible, the debtor’s case may be dismissed or the debtor
           may voluntarily convert to Chapter 13 of the Bankruptcy Code,
           which requires individuals to repay a portion of their debt under a
           payment plan – usually 3 to 5 years – or face dismissal of their case
           altogether.

       •   Debtor Audits. The BAPCPA mandated that a system of audits be
           established to determine the accuracy of information provided by
           individuals filing for bankruptcy under Chapters 7 or 13. The
           BAPCPA further states that the audits will be performed by
           independent CPAs or independent licensed public accountants.
           Cases are selected on a random or non-random basis with non-
           random selections based on income or expenses that deviate
           significantly from the norm.

       •   Credit Counseling. 8 Individuals must receive credit counseling
           before filing for bankruptcy and also take a debtor education course
           before having debts discharged. The BAPCPA assigned
           responsibility to the USTP for implementing these requirements,
           including the development of rules and guidance and the
           certification of approved credit counseling and debtor education
           programs.

Monitoring Panel Trustees

      To assess the oversight of panel trustees, we selected a judgmental
sample of 54 panel trustees in 4 UST regions that we visited. We reviewed
the CPA audits, field examinations, trustee interim report reviews, and
biennial trustee performance reviews that were maintained in the files for
the 54 panel trustees.

       In addition, we obtained data from the EOUST on all CPA audits and
field examinations conducted between FYs 2004 and 2007. As of June 2007,
there were 1,140 panel trustees. Of this number, 34 panel trustees were

       7
            According to the BAPCPA, all individuals filing for bankruptcy relief under
Chapters 7 or 13 are required to complete a SCMI and submit it to the court along with the
bankruptcy petition. The SCMI requires the debtor to provide the following information:
(1) current monthly income, (2) allowable deductions such as living expenses and future
payments on secured claims, and (3) the median family income for the state in which the
debtor resides. Based on the information provided, a debtor makes a self-assessment of
eligibility for relief using a basic mathematical formula that is built into the SCMI. The SCMI
is required to be submitted along with the debtor’s bankruptcy application.
       8
        See GAO, Bankruptcy Reform. We did not test credit counseling because of the
GAO’s report.


                                            - vi -
appointed within the last 4 years and therefore were not required to have an
audit or field examination. Therefore, we reviewed the information provided
by the EOUST on the remaining 1,106 panel trustees to determine if the
reviews were being performed as required.

       Overall, we determined that the USTP’s system of audits and reviews
to monitor Chapter 7 panel trustees was adequate. However, we found that
field examinations were sometimes delayed or not completed at all. Of the
1,106 panel trustees, 421 required an on-site field examination between
FYs 2004 and 2007. Of the 421, we found that 111 (26 percent) of the
panel trustees did not have a field examination conducted within the
required 4 years. In 6 instances, the field examinations were not conducted
at all, which means that the panel trustees were allowed to administer cases
for 8 years without any on-site review. We also noted that annual trustee
interim report reviews were not performed or consistently documented in the
4 regions that we visited. Of the total 156 trustee interim reports selected,
we found that 28 reports (18 percent) were either not reviewed or there was
no evidence to document the review. To the extent that the USTP fails to
provide timely and effective oversight through its system of reviews, it
increases the risk that a panel trustee’s poor performance or misconduct
may go undetected.

Debtor Oversight

      The BAPCPA requires that the USTP perform means testing on all
bankruptcies filed under Chapters 7 and 13. We selected a judgmental
sample of 40 means test reviews in progress at the time of our field visits
and followed up with the regional USTs to determine the outcome of the
reviews.

     Based on this sample review, we concluded that the USTP had
adequate controls in place to ensure that means testing was conducted
on Chapter 7 and Chapter 13 bankruptcy filings as required by the
BAPCPA. However, both EOUST officials and UST field staff raised
concerns regarding the level of resources that would be required to
remain in compliance with the means testing requirements of the
BAPCPA should bankruptcy filings return to their pre-BAPCPA levels.

       However, if bankruptcy filings return to pre-BAPCPA levels, a
significant reallocation of resources may be required. We believe that if the
USTP does not plan for such an eventuality, it could compromise the
agency’s ability to provide effective oversight in other key areas, such as
panel trustee operations.

     During the course of this audit, we found that bankruptcy filings in
2007 were roughly half the number of filings recorded in the 3 years leading
                                    - vii -
to passage of the BAPCPA in October 2005. Even at 2007’s historically low
level of filings, however, efforts to achieve compliance with means testing
requirements appear to have had an impact on the USTP’s panel trustee
oversight responsibilities. This was evident in the 26 percent failure rate we
observed in the regional UST’s ability to complete field examinations of panel
trustee operations in a timely manner. One of the main reasons cited by
both EOUST and regional UST officials for the decline in panel trustee
oversight was the diversion of regional UST resources to means testing.

      We could not confirm EOUST and UST officials’ assertions. However,
we believe that a correlation could exist because: (1) USTP staff are
required to conduct panel trustee oversight as well as means testing, and
(2) the decline in panel trustee oversight has coincided with the increase in
debtor oversight mandated by the BAPCPA. 9 The return of bankruptcy filings
to their pre-BAPCPA levels, therefore, could have a significant impact on the
USTP’s ability to provide effective oversight in other key areas, in particular
oversight of panel trustee operations.

      To minimize the impact of the BAPCPA’s means testing requirements,
the EOUST has been working with the AOUSC to implement the use of
standardized automated bankruptcy forms. EOUST officials stated that
automated bankruptcy forms would significantly streamline the means
testing process. However, the EOUST cannot unilaterally make such a
change because the AOUSC is responsible for implementing automated
bankruptcy forms. We agree with EOUST officials that the use of automated
bankruptcy forms would streamline the means testing process, and believe
that the EOUST should continue to work with the AOUSC to implement the
use of automated forms.

      We also reviewed the USTP’s implementation of debtor audits based on
the BAPCPA requirements. Independent auditors conduct debtor audits and
issue either a report of audit or a report of no audit to the regional UST.
Each report of audit is also filed with the court. The report of audit can
include no findings or may include material misstatements. 10 A report of no

       9
         UST field offices have developed a two-tiered system of means testing based on
the complexity of the case. The tier-one review is designed to quickly assess and eliminate
those means tests results that demonstrate the debtor is eligible for protection under the
bankruptcy code. The tier-two review includes all cases where additional analysis is
required to determine whether a presumption of abuse exists on the part of the debtor.
USTP policy requires that UST field staff performing tier-one reviews should confer with
paralegals, bankruptcy analysts, or trial attorneys if any questions arise as to whether a
case should be closed or referred for a tier-two review.

       10
          Material misstatements are generally defined as the underreporting or omission of
a debtor's assets. This may include, but is not limited to monthly income, bank accounts,
personal property, and real property.


                                          - viii -
audit identifies when the audit firm receives no response from the debtor, an
insufficient response from the debtor, or the case is dismissed before a
sufficient response is received.

       According to EOUST records, 4,095 debtor audits were selected for
audit in FY 2007. This included 3,161 random audits and 934 non-random
audits. The random audits represented 1 of every 250 of the roughly
795,000 filings recorded in FY 2007. Non-random audits are selected for
cases when the debtor’s income or expenses deviate significantly from the
statistical norm of the district in which the schedules were filed. We verified
the audit selection process and concluded that the BAPCPA criteria were
followed. Additionally, we reviewed 12 debtor audits at the 4 regions that
we visited that had resulted in audit reports with material misstatements.
We verified that the regional UST was performing follow-up procedures on
these audits in accordance with the BAPCPA. Based on the work performed
by the independent auditors, we concluded that the debtor oversight
provided by the USTP in the cases we reviewed was in accordance with the
BAPCPA’s requirements.

Conclusion and Recommendations

      We concluded that the USTP’s system of audits and reviews was
adequate to monitor the effectiveness of panel trustee operations. However,
while the oversight system was adequate, we noted some problems in its
execution. Specifically, we found that many field examinations were not
conducted within the required 4 year interval. We also noted that annual
trustee interim report reviews were not always performed or consistently
documented. Failure to complete these oversight activities in a timely
manner could result in poor performance or misconduct by panel trustees
going undetected.

       With regard to debtor oversight, our review of the USTP’s activities in
the areas of means testing and debtor audits found that the USTP had met
its obligations under the requirements of the BAPCPA. We noted, however,
that means testing is a labor-intensive process, and that if bankruptcy filings
return to their pre-BAPCPA levels, the diversion of resources required to
remain in compliance with the BAPCPA may significantly affect the USTP’s
ability to accomplish its overall mission, particularly in the oversight of panel
trustee operations.

      Our audit made four recommendations to assist the EOUST in
implementing USTP policy and complying with BAPCPA requirements. First,
EOUST should ensure that CPA audits or UST field examinations are
conducted every 4 years. Second, regional USTs should complete annual
trustee interim report reviews for all panel trustees unless a CPA audit or
UST field examination has been conducted within the same year. Third, the
                                      - ix -
EOUST should continue to work with the AOUSC to require mandatory use of
automated bankruptcy forms. Fourth, the EOUST should formulate a
strategic plan to meet means testing requirements in the event that filings
increase and available resources remain static.




                                   -x-
                                   TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
  Background.................................................................................... 2
  USTP Oversight of Panel Trustees...................................................... 3
  Prior Audits .................................................................................... 6
  Audit Approach ............................................................................... 7

FINDINGS AND RECOMMENDATIONS................................................ 9

I. MONITORING OF PANEL TRUSTEES .............................................. 9
   CPA Audits and UST Field Examinations............................................ 11
   Trustee Interim Report Reviews ...................................................... 18
   Biennial Trustee Performance Reviews ............................................. 19
   Conclusion ................................................................................... 21
   Recommendations......................................................................... 22

II. DEBTOR OVERSIGHT.................................................................. 23
   Means Testing .............................................................................. 24
   Debtor Audits ............................................................................... 29
   Conclusion ................................................................................... 32
   Recommendations......................................................................... 33

APPENDICES:
I.  OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 35

II.    ACRONYMS ..............................................................................36

III.   FORM 1: INDIVIDUAL ESTATE PROPERTY RECORD AND
       REPORT ...................................................................................37

IV.    FORM 2: CASH RECEIPTS AND DISBURSEMENTS RECORD ......38

V.     FORM 3: SUMMARY INTERIM ASSET REPORT .........................42

VI.    SAMPLE COPY OF CPA AUDIT REPORT .....................................43

VII. EXAMPLES OF CONSEQUENTIAL DEFICIENCIES.......................53

VIII. ANALYSIS OF OVERDUE UST FIELD EXAMINATIONS ...............54

IX.    OFFICIAL FORM 22A: CHAPTER 7 STATEMENT OF CURRENT
       MONTHLY INCOME AND MEANS-TEST CALCULATION...............59

X.     AUDITEE RESPONSE ................................................................65

XI.    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
       ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
       CLOSE THE REPORT .................................................................70
This page intentionally left blank.
                                   INTRODUCTION

      The Bankruptcy Act of 1978 created the United States Trustee
Program (USTP) as a component of the Department of Justice (DOJ) and
charged the USTP with the responsibility for supervising the administration
of bankruptcy cases and trustees, including Chapter 7 panel trustees.
Chapter 7 panel trustees are usually attorneys or accountants who are
appointed by the USTP to administer bankruptcy cases filed under Chapter 7
of the U.S. Bankruptcy Code. Panel trustees are not government officials,
but rather are private individuals appointed by the USTP to serve a 1-year
renewable term.

       As of June 2007, 1,140 Chapter 7 panel trustees operated nationwide
and processed a total of 484,162 Chapter 7 filings during fiscal year (FY)
2007. Annually, Chapter 7 panel trustees are responsible for collecting over
$2.7 billion in funds through the liquidation of debtors’ estates, and
distributing those funds to secured and unsecured creditors in accordance
with the U.S. Bankruptcy Code. Given the significant dollar amounts
involved, the risks associated with the handling of cash and other liquid
assets, and the inherently adversarial relationship between debtors and
creditors, the integrity of the bankruptcy process is dependent upon the
effectiveness of panel trustees.

       The Department of Justice Office of the Inspector General (OIG)
initiated this audit of the USTP’s oversight over panel trustees to determine
whether mechanisms exist to ensure that bankruptcy assets are safeguarded
and properly administered. Since FY 2004, the USTP has contracted with
private audit firms to conduct this oversight work. 11 In addition to the
audits, the USTP has relied on other mechanisms to monitor panel trustees’
financial activity and case administration. We reviewed these various forms
of oversight and discuss the results of our audit in the Findings and
Recommendations Section of this report.

       In addition, when we began our audit of the USTP’s oversight over
Chapter 7 panel trustees we considered the Bankruptcy Abuse Prevention
and Consumer Protection Act of 2005 (BAPCPA), which at the time was a
relatively new law that included new requirements for the USTP in the area
of debtor oversight. Among those requirements were (1) the
implementation and monitoring of a screening process known as means
testing, for all debtors filing under the Chapter 7 and Chapter 13 Bankruptcy

       11
           From FYs 1990 to 2003, the OIG helped provide this oversight by auditing
individual Chapter 7 panel trustees through a reimbursable agreement with the EOUST.
During that time the OIG issued over 4,000 audit reports on individual Chapter 7 panel
trustee operations.

                                          -1-
Code; and (2) the implementation and monitoring of a system of random
and non-random debtor audits by independent certified public accountant
(CPA) firms. Given the USTP’s oversight responsibilities, we also reviewed
the USTP’s efforts in meeting the new requirements included in the BAPCPA.

Background

       The impetus for the USTP can be traced back to the Commission on
the Bankruptcy Laws of the United States appointed by Congress in 1970 to
evaluate and recommend changes in the substance and administration of the
federal bankruptcy laws. The Commission found that case management
under the prior Bankruptcy Act was inefficient, ineffective, and inconsistent.
An independent study conducted by the Brookings Institution found similar
problems with the system, especially with regard to the role of the
bankruptcy trustee. This included the appearance of political patronage or
cronyism in the appointment of trustees, inconsistency in the quality and
ability of trustees, and actions by trustees that reflected their own economic
interests above that of creditors. To address these problems, the
Commission recommended the creation of an independent federal agency to
provide oversight and promote integrity in the bankruptcy system.

      The USTP is modeled after the organization for United States
Attorneys, and consists of the Executive Office for United States Trustees
(EOUST), which is led by a Director who oversees 21 United States Trustee
Regions each headed by a United States Trustee (UST). Within the 21
regions are 95 field offices each headed by an Assistant United States
Trustee (AUST). The Director acts under authority delegated by the
Attorney General to provide day-to-day policy, legal direction, and
coordination to the regional offices. USTs are DOJ employees appointed by
the Attorney General and are responsible for supervising the administration
of bankruptcy cases and panel trustees within their region.

       The map below illustrates the 21 geographic regions of the USTP. The
districts of Alabama and North Carolina are not part of the USTP, but rather
have bankruptcy administrator offices in each of their judicial districts. We
did not include the bankruptcy administrators in Alabama and North Carolina
as part of our review. 12




       12
          Congress established the bankruptcy administrator program as part of the United
States Courts system in 1986 to oversee the administration of bankruptcy cases, maintain a
panel of private trustees, and monitor the transactions and conduct of parties in bankruptcy
in Alabama and North Carolina.

                                           -2-
Source: EOUST

USTP Oversight of Panel Trustees

       According to the USTP, its supervisory duties are an ongoing process
that begins when a panel trustee is assigned to a case and continues
throughout the administration of the case. According to the USTP Manual,
the goal in monitoring panel trustees is to establish a system that allows
USTs to evaluate a panel trustee’s competency and integrity in discharging
his or her fiduciary duties.

       The system established by the USTP consists of an oversight regimen
that includes: (1) audits conducted by CPAs, (2) field examinations
conducted by UST field office staff, (3) annual trustee interim reports, and
(4) biennial trustee performance reviews. 13

      According to the USTP Manual on Chapter 7 Case Administration, CPA
audits and UST field examinations are to be conducted on a rotating basis
       13
           Other reports submitted by the panel trustee include the Trustee Final Report,
which summarizes all actions taken by the trustee to administer a case, and the Trustee
Distribution Report, which certifies to the USTP that all funds have been disbursed and the
case has been fully administered.

                                           -3-
every 4 years. CPA audits are conducted by an independent CPA under
contract with the EOUST and involve an on-site review of a panel trustee’s
operations. As mentioned earlier in this report, prior to FY 2004 audits of
Chapter 7 panel trustees were conducted by the OIG under a reimbursable
agreement with the EOUST.

       Field examinations are also conducted on-site and are performed by
UST field staff. CPA audits and UST field examinations are similar in scope
and methodology. However, field examinations are focused more on the
trustee’s case administration, whereas CPA audits emphasize the trustee’s
internal controls over bankruptcy assets. Both CPA audits and field
examinations result in the issuance of reports and require a formal
resolution process to document corrective action taken to remedy any
deficiencies identified.

       Each panel trustee is required to submit annually a trustee interim
report to the regional AUST. The trustee interim report reflects the panel
trustee’s activities and accomplishments during the reporting period such as
the number of asset cases the Chapter 7 panel trustee is administering, the
types of assets for each case and their dispositions, and a record of cash
transactions (receipts and disbursements) for each case. Review of the
trustee interim report is conducted at the regional UST office and includes:
(1) an evaluation of the panel trustee’s completeness of reporting, (2) a
summary of reported cases, (3) a case administration analysis, and (4) an
evaluation of the accuracy of case and asset information reports. The
trustee interim report review is not performed in years in which an audit or a
field examination is conducted.

      In addition, UST field staff conduct a trustee performance review
biennially to document the panel trustee’s performance. The review includes
an evaluation of the panel trustee’s performance in each of the trustee’s
areas of responsibility. Like the trustee interim report reviews, the trustee
performance reviews do not involve on-site visits but rather are performed
at the regional UST field office and the results are communicated to the
panel trustee.

      Thus in any given year a panel trustee can expect one or more of the
aforementioned reviews. The table below reflects a schedule of planned
oversight activities for a panel trustee during an 8-year review cycle. 14



       14
            This does not include day-to-day interaction between the panel trustee and UST
field office staff, both formal and informal, that occurs throughout the administration of a
trustee’s caseload.

                                            -4-
                      TABLE 1: U.S. TRUSTEE PROGRAM
                    SCHEDULE OF OVERSIGHT ACTIVITIES
                                                                               Annual
                                                                              Trustee
                                                                              Interim
 Year of 8-                                            Biennial                Report
   Year          CPA Audit or UST Field              Performance                (TIR)
   Cycle             Examination                       Review                 Review 15
   Year 1      CPA Audit                       None                         None
   Year 2      None                            Performance Review           TIR Review
   Year 3      None                            None                         TIR Review
   Year 4      None                            Performance Review           TIR Review
   Year 5      UST Field Examination           None                         None
   Year 6      None                            Performance Review           TIR Review
   Year 7      None                            None                         TIR Review
   Year 8      None                            Performance Review           TIR Review
   Year 9      CPA Audit                       None                         None
Source: UST Manual, Volume 2

Bankruptcy Abuse Prevention and Consumer Protection Act of 2005

      The Bankruptcy Abuse Prevention and Consumer Protection Act of
2005 (BAPCPA) was enacted on April 20, 2005, with most of the law’s
provisions taking effect 6 months later on October 17, 2005. The BAPCPA
created several additional responsibilities for the USTP, including the
implementation and monitoring of: (1) means testing, (2) debtor audits,
and (3) credit counseling.

       •    Means Testing. The BAPCPA created a means test requirement
            for all debtors filing for protection under Chapters 7 and 13 of the
            Bankruptcy Code and required that the USTP perform means tests
            on all debtor filings. 16 The purpose of the means test is to prevent
            debtors who have the ability to repay their creditors from being


       15
           Trustee interim report reviews are not performed separately in the years that a
CPA audit or UST field examination is scheduled. Rather, they are included as part of the
audit or field examination.

       16
          Under Chapter 13, debtors file a repayment plan with the court under which they
agree to pay their debts over a period of usually 3 to 5 years. In these cases debtors obtain
discharges from their debt upon completion of the repayment plan.

                                           -5-
            discharged from their debts under protection of the Bankruptcy
            Code. The means test involves the review of the form entitled
            “Chapter 7 Statement of Current Monthly Income and Means-Test
            Calculation” (Official Form 22A), as well as the debtor’s bankruptcy
            petition and supporting schedules. 17 If filing under Chapter 7 and
            repayment is deemed possible, the debtor’s case may be dismissed
            or the debtor may voluntarily convert to Chapter 13 of the
            Bankruptcy Code that requires individuals to repay a portion of their
            debt under a payment plan or face dismissal of their case
            altogether.

       •    Debtor Audits. The BAPCPA mandated that the USTP establish a
            system of audits to determine the accuracy of information provided
            by individuals filing for bankruptcy under Chapters 7 or 13 of the
            Bankruptcy Code. The BAPCPA provides that audits will be
            performed by independent CPAs or independent licensed public
            accountants. It further states that the cases will be selected for
            audit on a random basis as well as a non-random basis if income or
            expenses deviate significantly from the norm of the district in which
            the case was filed.

       •    Credit Counseling. The BAPCPA requires that individuals receive
            credit counseling before filing for bankruptcy and that they take a
            debtor education course before having debts discharged. The
            BAPCPA assigned responsibility to USTP for implementing these
            requirements, including the certification of approved credit
            counseling and debtor education programs.

      As part of this audit, we reviewed the USTP’s efforts in meeting the
BAPCPA’s means testing and debtor audit requirements. We did not test for
compliance with credit counseling requirements because this issue was
reviewed by the Government Accountability Office (GAO) in a May 2007
report, which is discussed under “Prior Audits.”

Prior Audits

      The GAO and the OIG conducted prior audits that have examined
various aspects of the USTP and bankruptcy reform efforts. Below is a
summary of two of those reports.

       17
          Supporting schedules are as follows: Schedule A (real property), Schedule B
(personal property), Schedule D (creditors holding secured claims), Schedule E (creditors
holding unsecured priority claims), Schedule F (creditors holding unsecured non-priority
claims), Schedule H (co-debtor), Schedule I (current income of individual debtors), and
Schedule J (current expenditures of individual debtor’s statement of financial affairs).

                                           -6-
      In its report on bankruptcy reform, the GAO reviewed the
implementation of the credit counseling requirement under BAPCPA and
concluded that it had been implemented as required. 18 However, the GAO
found that because there is no mechanism in place to track the outcome of
credit counseling sessions, it is not possible to determine the benefit of such
counseling, if any, to debtors.

       In our March 2003 audit report, we reviewed the management controls
implemented by U.S. Trustee offices to identify and eliminate fraud and
misconduct by debtors, panel trustees, and others. 19 We found that the
management controls in place were primarily focused on panel trustees and
their employees and not on the debtors. We also found that when it came to
debtor fraud the USTP relied too much on tips from third parties and panel
trustee reviews of case information.

Audit Approach

     The objectives of this audit were to determine if the USTP is providing
adequate monitoring and oversight of Chapter 7 panel trustees and to
assess the USTP’s compliance with requirements of the BAPCPA, such as its
implementation of the means test and debtor audits.

      We conducted our audit work at EOUST headquarters in Washington,
D.C., where we interviewed officials involved with panel trustee and debtor
oversight; reviewed pertinent policies and procedures; and analyzed reports,
memoranda, and other documents related to the oversight process. We also
reviewed the process of awarding CPA contracts for both panel trustee and
debtor audits, and examined the most recent contracts that were awarded
with a specific emphasis on the statements of work. Finally, we performed a
comparative analysis of the CPA audit reports with previous Chapter 7 audits
issued by the OIG.

      In addition to our work at EOUST headquarters, we conducted site
work at regional offices in Cleveland, Ohio; Los Angeles, California; San
Francisco, California; and Seattle, Washington. All 4 regions were among
the top 10 regions for Chapter 7 bankruptcy filings in FY 2006, including
Cleveland, which had the most filings in the nation. At the regions, we
conducted interviews with the U.S. Trustees, Assistant U.S. Trustees,
bankruptcy analysts and attorneys, and other field staff. We also examined

      18
         Government Accountability Office, Bankruptcy Reform, Value of Credit Counseling
Requirement is Not Clear, GAO-07-778T, May 1, 2007.
      19
         Department of Justice, Office of the Inspector General, The U.S. Trustee
Program’s Efforts to Prevent Bankruptcy Fraud and Abuse, Report 03-17, March 2003.

                                         -7-
audits and field examinations of panel trustee operations and reviewed files
to determine whether adequate follow-up was performed to document
corrective action taken on deficiencies identified in audits and field
examinations. In addition, we examined files to determine whether the
required panel trustee interim report reviews were performed. With regard
to debtor oversight, we examined debtor audits that included material
misstatements in order to determine whether appropriate follow-up
procedures were followed. We also assessed the means testing process for
debtor bankruptcy filings to determine whether means testing was being
performed in accordance with the BAPCPA.

     Appendix I contains further description of our audit objectives, scope
and methodology.




                                    -8-
                  FINDINGS AND RECOMMENDATIONS

I.   MONITORING OF PANEL TRUSTEES

     Our review of the USTP’s monitoring activities from FYs 2004
     through 2007 found that the schedule and procedural framework
     of audits and reviews established by the USTP was adequate for
     ensuring the competency and integrity of panel trustees in
     discharging their fiduciary duties. However, we found that, in
     practice the reviews were not always performed in a timely
     manner. Specifically, we found that UST field examinations —
     one of the USTP’s primary oversight mechanisms — were not
     conducted timely for 26 percent of the trustees requiring field
     examinations during the review period. In several instances,
     field examinations were not conducted at all, due to delays in
     scheduling and performing field examinations. In these
     instances, the panel trustees were allowed to administer cases
     for up to 8 years without an on-site review of their operations.
     To the extent that the USTP does not conduct such reviews of
     panel trustees on a timely basis, it increases the risk that a
     panel trustee’s poor performance or misconduct may go
     undetected.

       To assess the USTP’s effectiveness in monitoring panel trustees, we
reviewed the program’s oversight activities from FYs 2004 through 2007. In
assessing the effectiveness of oversight we sought to determine whether the
frequency and thoroughness of review provided by the USTP was sufficient
to ensure the competency and integrity of panel trustees in discharging their
fiduciary duties. We focused our review on several primary oversight
mechanisms used by the USTP: independent CPA audits, field examinations,
reviews of trustee interim reports, and biennial panel trustee performance
reviews.

     We selected for detailed review 54 panel trustees in the 4 UST regions.
Our selection was based on a judgmental sample of 10 panel trustees or




                                    -9-
20 percent of the total panel trustees in the region visited, whichever was
greater. 20 We designed our selection to ensure that all field offices within
each region visited were represented in our sample of panel trustees. 21

       For each of the panel trustees selected we reviewed files maintained at
the regional UST office as well as files maintained by the EOUST in
Washington, D.C. Specifically, our file reviews included evaluating whether:
(1) CPA audits and field examinations were adequately documented,
conducted in a timely manner, and deficiencies were adequately addressed;
(2) annual trustee interim report reviews were performed by UST field staff
and any discrepancies or problems were identified and resolved; and
(3) biennial performance reviews were performed, adequately documented,
and any performance issues were adequately addressed. In addition, our
file reviews included an examination of available correspondence between
the UST field offices and panel trustees. This included a review of formal
correspondence such as notices of appointment or suspension, as well as
informal correspondence such as e-mail or notes of telephone conversations.

      The total number of CPA audits, field examinations, trustee interim
report reviews, and biennial performance reviews that we examined by UST
region visited is shown in the table below.




      20
          Samples selected from the regional offices were as follows: Region 9: Cleveland,
OH – 21 panel trustees; Region 16: Los Angeles, CA – 10 panel trustees; Region 17: San
Francisco, CA – 10 panel trustees; and Region 18: Seattle, WA – 13 panel trustees.
      21
           UST field offices represented in our sample included: Region 9: Cleveland,
Cincinnati, and Columbus, OH; and Detroit and Grand Rapids, MI. Region 16: Los Angeles,
San Fernando Valley, Riverside, Santa Barbara, and Santa Ana, CA. Region 17: San
Francisco, Oakland, San Jose, Sacramento, and Fresno CA; and Reno and Las Vegas, NV.
Region 18: Seattle and Spokane, WA; Anchorage, AK; Boise, ID; Great Falls, MT; and
Portland and Eugene, OR.

                                         - 10 -
            TABLE 2: FILE REVIEW RESULTS FOR SAMPLE OF
                    54 CHAPTER 7 PANEL TRUSTEES
          AT THE 4 UNITED STATES TRUSTEE REGIONS VISITED
                                                      Reviews of
                                                       Trustee       Biennial
         Regions               CPA        Field        Interim     Performance
          Visited             Audits   Examinations     Report       Reviews
UST Region 9
(Cleveland, Ohio)               9               7        28            31
UST Region 16
(Los Angeles, California)       3               6        24            18
UST Region 17
(San Francisco, California)     5               4        19            16
UST Region 18
(Seattle, Washington)           6           10           25            25
                  TOTALS       23           27           96            90
Source: UST and EOUST Files

      In addition to our file reviews, we analyzed data from the EOUST on all
CPA audits and field examinations conducted between FYs 2004 and 2007.
Our analysis included comparing the dates of the CPA audits and UST field
examinations to when these reviews were required. In addition, we
analyzed the results from the audits and examinations.

      As of June 2007, there were 1,140 Chapter 7 panel trustees, of which
34 were appointed within the last 4 years and therefore were not required to
have a CPA audit or field examination. Therefore, we reviewed the
information provided by EOUST on the remaining 1,106 panel trustees to
determine if the oversight reviews were being performed as required.

CPA Audits and UST Field Examinations

      USTP policy requires that CPA audits and field examinations be
conducted on a rotating basis every four years. Specifically, the policy
requires that an independent CPA audit of a panel trustee’s operations occur
every 8 years, with a field examination to be conducted in the interim. As
previously mentioned, CPA audits and UST field examinations are similar in
scope and methodology. Both involve an on-site review of a panel trustee’s
case administration. However, field examinations are focused more on a
panel trustee’s case administration, whereas CPA audits provide a greater
emphasis on a panel trustee’s internal controls. Both CPA audits and field
examinations result in the issuance of reports that render an opinion
regarding the panel trustee’s ability to safeguard bankruptcy case assets.
The opinion states that the trustee’s practices and procedures are either:
(1) adequate; (2) adequate, except for select deficiencies that do not

                                       - 11 -
warrant an inadequate opinion; or (3) inadequate because of consequential
deficiencies, repeat findings, weak internal controls, lack of supporting
documentation, or non-compliance. 22

       According to USTP policy, a panel trustee must provide a written
response to the regional UST within 45 days of the date of the written report
confirming that any necessary corrective actions to address deficiencies has
been taken and changes implemented, if necessary. If a CPA audit or UST
field examination results in an inadequate opinion, USTP policy requires that
the panel trustee be suspended from active rotation of handling bankruptcy
cases. To be taken off rotation means that a panel trustee will not be
assigned any new cases, but can continue to administer the cases already
assigned. If the panel trustee that receives an inadequate opinion does not
implement corrective actions to address the audit findings, the panel trustee
may be removed.

CPA Audits

      CPA audits of Chapter 7 panel trustees are conducted by independent
CPA firms under contract with the EOUST and involve an on-site review of
the panel trustee’s operations. Currently, the EOUST has contracts with four
national CPA firms that conduct audits of panel trustee operations
throughout the country.

      The scope of these CPA audits is modeled closely after the audits the
OIG conducted of panel trustees from FY 1988 until FY 2003. In fact,
according to the EOUST, the contracted CPA firms initially used the OIG’s
Chapter 7 audit program to conduct their panel trustee audits. Further, our
review of the current statement of work for the CPA audits showed that it
retained all of the original language included in the prior statement of work
used under the EOUST’s former reimbursable agreement with the OIG.

      According to the current statement of work, the audits are to be
conducted in accordance with government audit standards for performance
audits except that: (1) the audit report is issued to the UST rather than the
panel trustee; (2) the report contains no recommendations and is issued
closed; and (3) findings are limited to identification of criteria and
conditions.

      The statement of work also provides that the objectives of the CPA
audits are to: (1) determine if the trustee has established an appropriate
system of internal controls to safeguard estate funds and property and to
ensure integrity of financial recordkeeping and reporting; (2) determine if

      22
           A list of consequential deficiencies is located in Appendix VII.

                                             - 12 -
 the trustee maintains an appropriate asset administration system to
 adequately and promptly collect, protect, and administer estate funds and
 property in keeping with the trustee’s fiduciary duties; and (3) verify that
 internal controls, recordkeeping and reporting procedures, and asset
 administration procedures are operating effectively to ensure that all estate
 funds and property are accounted for and adequately protected against loss.

       Of the 54 panel trustees that we reviewed in this audit, 23 had CPA
 audits completed of their activities. We determined that each of these audits
 were completed in accordance with the statement of work and all 23 panel
 trustees received either an “adequate” or “adequate except for” opinion.
 The table below shows the distribution of opinions for the reports we
 reviewed.

              TABLE 3: CPA AUDIT OPINIONS FOR SAMPLE
         OF 54 PANEL TRUSTEES AT THE FOUR REGIONS VISITED
                                     AUDIT OPINIONS
                                       “Adequate,
        UST                              Except                                     TOTAL
   Region Visited         “Adequate”     For” 23  “Inadequate”                      Audits

9 (Cleveland)                   0                9                  0                  9
16 (Los Angeles)                0                3                  0                  3
17 (San Francisco)              0                5                  0                  5
18 (Seattle)                    2                4                  0                  6
                TOTAL           2                21                 0                 23
Source: UST and EOUST files

        We also confirmed that the individual deficiencies identified in the CPA
 audit reports supported the overall opinions. We found all opinions to be
 consistent with the deficiencies identified. Further, we verified that the UST
 field staff followed up in a timely manner on deficiencies identified in each
 report we reviewed in order to ensure that corrective action was taken by
 the panel trustee.

       As shown in the table above, of the 23 CPA audits that we reviewed for
 the 54 sampled panel trustees, there were no reports with an inadequate
 opinion. In order to evaluate how well the UST field offices monitored panel
 trustees who received inadequate CPA opinions, we selected 3 CPA audits
 with inadequate opinions that were not related to the 54 panel trustees we
 sampled. For each of these CPA audit reports, we found that the panel

        23
            This category identifies audits where the auditor concluded that the trustee’s
 internal controls were generally adequate, but had noted one or more exceptions.

                                            - 13 -
 trustee was given a letter of suspension and that corrective action on
 deficiencies identified in the reports was taken before the panel trustee was
 reinstated.

       As stated earlier in this report, we obtained from the EOUST data on
 all CPA audits conducted from FYs 2004 through 2007 and the resulting
 opinions, as shown in the table below.

         TABLE 4: OPINIONS RESULTING FROM CPA AUDITS
    OF CHAPTER 7 PANEL TRUSTEES FROM FYs 2004 THROUGH 2007
                                             “Adequate,
Fiscal                                       Except For”              “Inadequate”            TOTAL
Year          “Adequate” Opinions            Opinions 24                Opinions              Audits
              Quantity  Percent 25        Quantity  Percent         Quantity  Percent
2004                    7          3%            189        94%               5          2%      201
2005                  14           8%            147        88%               6          4%      167
2006                    8          5%            139        94%               1          1%      148
2007                    4          3%            125        94%               4          3%      133
TOTAL                 33           5%            600        92%              16          2%      649
Source: EOUST

       We analyzed the information from the EOUST’s database related to
 these CPA audits by comparing the date of the most recent CPA audit to the
 date of the prior audit. 26 The purpose of this comparison was to determine
 whether the audit was performed within the 8-year cycle as required by
 USTP policy. We found that all 649 CPA audits within our period of review
 were conducted within the required timeframe.

 UST Field Examinations

       UST field examinations are to be conducted by the regional UST in the
 interim between audits to ensure that each panel trustee receives either an
 audit or a field examination every 4 years. Field examinations are designed
 to verify that the trustee’s procedures for asset administration are adequate,
 case assets and funds are protected, and financial recordkeeping and



         24
            This category identifies audits where the auditor concluded that the trustee’s
 internal controls were generally adequate, but had noted one or more exceptions.
         25
              Not all percentages add to 100 percent due to rounding.
         26
              The prior audits were OIG audits conducted before FY 2004.

                                              - 14 -
 reporting are adequate and in accordance with the Handbook for Chapter 7
 Trustees and sound business practices. 27

        The objectives of the field examinations are to: (1) determine if the
 panel trustee maintains appropriate systems to adequately monitor asset
 administration and case progress, and promptly collect, protect, and
 administer case funds and property in keeping with the panel trustee’s
 fiduciary duties and in accordance with the Chapter 7 Handbook, Bankruptcy
 Code, local rules and sound business practices; (2) determine if the trustee
 has established appropriate procedures and internal controls to safeguard
 case funds and property, ensure the integrity of financial recordkeeping and
 reporting, and discourage employee theft in accordance with the Chapter 7
 Handbook and sound business practices; and (3) verify that the trustee’s
 systems, procedures, and controls are operating effectively.

        Of the 54 panel trustee files that we reviewed in the 4 regions we
 visited, 25 had field examinations performed during our review period, and
 each was completed in accordance with the USTP Manual. The table below
 shows the distribution of opinions for the field examinations we reviewed.

         TABLE 5: FIELD EXAMINATION OPINIONS FOR SAMPLE
         OF 54 PANEL TRUSTEES AT THE FOUR REGIONS VISITED
                              FIELD EXAMINATION OPINIONS
                                      “Adequate,                                    TOTAL
        UST                             Except                                       Field
   Region Visited         “Adequate”    For” 28  “Inadequate”                    Examinations

9 (Cleveland)                   1                6                  0                    7
16 (Los Angeles)                1                5                  0                    6
17 (San Francisco)              1                3                  0                    4
18 (Seattle)                    1                6                  1                    8
                TOTAL           4                20                 1                   25
Source: UST and EOUST files

       We also confirmed that the individual deficiencies identified in the field
 examinations supported the overall opinions. Further, we verified that the
 UST field staff followed up in a timely manner on deficiencies identified in



        27
           The Handbook for Chapter 7 Trustees represents a statement of operational policy
 and is a working manual for Chapter 7 trustees under UST supervision.

        28
            This category identifies audits where the auditor concluded that the trustee’s
 internal controls were generally adequate, but had noted one or more exceptions.

                                            - 15 -
   each field examination we reviewed in order to ensure that corrective action
   was taken by the panel trustee.

          As shown in the table above, of the 25 field examinations that we
   reviewed for the 54 sampled panel trustees, one field examination resulted
   in an inadequate opinion. In order to determine how well the UST field
   offices handled panel trustees who received inadequate field examinations,
   we selected another 5 field examinations with inadequate opinions that were
   not related to the 54 panel trustees we sampled. For each of the inadequate
   field examinations, we found that the panel trustee was given a letter of
   suspension and that corrective action on deficiencies identified in the field
   examination was taken before the panel trustee was reinstated.

           As stated earlier in this report, we obtained from the EOUST data on
   all field examinations conducted from FYs 2004 through 2007 and the
   resulting opinions, as shown in the table below.

       TABLE 6: OPINIONS RESULTING FROM UST FIELD EXAMINATIONS
        OF CHAPTER 7 PANEL TRUSTEES FROM FYs 2004 THROUGH 2007
                                        “Adequate,
               “Adequate”               Except For”               “Inadequate”                 TOTAL
 Fiscal         Opinions                Opinions 29                 Opinions                    Field
 Year       Quantity Percent         Quantity Percent           Quantity  Percent              Exams

2004               33        25%             97         72%              4           3%         134
2005               20        19%             79         76%              5           5%         104
2006               12        10%            101         85%              6           5%         119
2007               17        27%             43         67%              4           6%          64
TOTAL              82        19%            320         76%             19           5%         421
       Source: EOUST

          We analyzed the information from the EOUST’s database related to
   these field examinations by comparing the date of the most recent field
   examination to the date of the preceding CPA or OIG audit. The purpose of
   this comparison was to determine whether the field examination was
   performed within 4 years of the preceding audit, as required by USTP policy.
   We identified 111 panel trustees (26 percent) for whom field examinations
   were either not conducted in a timely manner or were not conducted at all




           29
              This category identifies audits where the auditor concluded that the trustee’s
   internal controls were generally adequate, but had noted one or more exceptions.



                                              - 16 -
between CPA audits. 30 In several instances, we found that the USTP had
allowed panel trustees to operate for up to 8 years without an on-site
review. As shown in the table below, untimely field examinations were
noted in the following regions.

                    TABLE 7: UST FIELD EXAMINATIONS
                    NOT COMPLETED IN TIMELY MANNER
                                            Number of Field
                                           Examinations not
                          UST             Performed within 4
                         Region           Years of Last Audit
                           1                       1
                           2                      19
                           3                      20
                           4                       0
                           5                       2
                           6                       5
                           7                       4
                           8                       1
                           9                      17
                           10                      8
                           11                      2
                           12                      0
                           13                      2
                           14                      1
                           15                      0
                           16                      3
                           17                     10
                           18                      1
                           19                      4
                           20                      7
                           21                      4
                         TOTAL                   111
                    Source: EOUST

       The lack of timely oversight with regard to field examinations for
26 percent of panel trustees is troubling, in that the USTP relies on these on-
site reviews to identify deficiencies in a panel trustee’s operation that
indicate weaknesses in the internal control structure and the potential for
fraud. Furthermore, field examinations are one of the primary mechanisms
used by the USTP to identify panel trustees whose performance is
inadequate in order to safeguard debtors’ assets. To the extent that the
USTP does not conduct reviews of panel trustees on a timely basis, it

      30
          Field examinations for 54 of the 111 panel trustees (49 percent) were performed
up to 1 year late.

                                         - 17 -
increases the risk that a panel trustee’s poor performance may go
undetected. Moreover, the lack of active timely oversight increases the
possibility that a panel trustee’s poor performance or misconduct left
unchecked may jeopardize the integrity of Chapter 7 bankruptcy
administration.

       EOUST officials explained that the untimely field examinations were
caused in part by the new BAPCPA requirement related to means testing.
Generally, bankruptcy analysts in field offices are responsible for conducting
field examinations. However, with the implementation of the BAPCPA in
2006, bankruptcy analysts were given the added responsibility of conducting
means tests and supervising others involved in the means test process.
Both EOUST and regional UST officials characterized means testing as a
labor-intensive process that has required a significant marshalling of
resources at the field office level. In addition, EOUST officials stated that
field examinations are one of several mechanisms that they use to monitor
panel trustees and that if a field examination is not conducted in a timely
manner the USTP has other means to detect poor performing panel trustees.

       We agree with the EOUST that field examinations are one of several
methods to monitor panel trustees. However, field examinations are one of
only two oversight methods that involve on-site reviews of panel trustee
operations. Just as with CPA audits, field examinations are valuable tools in
identifying internal control weaknesses that can only be identified during a
site visit. Therefore, we believe that the USTP should enhance its oversight
and monitoring ability by ensuring that field examinations are conducted
more consistently in a timely manner.

Trustee Interim Report Reviews

       The USTP implemented the trustee interim report as part of its effort
to create a uniform recordkeeping and reporting system for panel trustees.
According to the USTP Manual, the trustee interim report provides
information concerning a panel trustee’s financial management, internal
controls, and case administration. The report, which is submitted annually
unless the USTP requires that it be filed more frequently, consists of 3
distinct reports: the individual estate property record and report (Form 1),
the cash receipts and disbursements record (Form 2), and the summary
interim asset report (Form 3). Form 1 provides details on a case’s assets
and the status of their disposition. Form 2 details the flow of cash in and out
of each case account. Form 3 is an inventory of all cases expected or
declared to be asset cases and summarizes information provided on Forms 1




                                    - 18 -
and 2. 31 Examples of Forms 1, 2, and 3 can be found in Appendices III
through V.

       The UST regional field offices are required to review each trustee
interim report for accuracy and completeness and to ensure adherence to
fiduciary standards in the administration of a panel trustee’s cases.
Furthermore, findings should be documented in writing and discussed, if
appropriate, with the panel trustee. Trustee interim report reviews are not
performed in the same year as a CPA audit or UST field examination because
both audits and field examinations include the trustee interim report review
as part of their engagement. Therefore, a separate review is not necessary.

       From our review of 54 panel trustee files at the UST field offices, we
identified 156 trustee interim report reviews that should have been
performed by UST field office staff. We found that 128 (82 percent) of the
trustee interim report reviews in our sample were conducted and these
reviews included verification of accuracy and completeness. In addition, we
found evidence in the files to indicate that UST field office staff followed up
with panel trustees to obtain explanations for any findings that were
identified. The remaining 28 (18 percent) of the trustee interim reports in
our sample were either not reviewed or there was no evidence of review. 32
In the 3 regions represented by the missing 28 trustee interim reports, UST
officials explained that the additional workload created by the
implementation of means testing required a shifting of resources and
therefore less staff was available to perform trustee interim report reviews.

Biennial Trustee Performance Reviews

      Trustee performance reviews are performed by UST field staff, usually
by a performance review team that consists of a staff attorney and
bankruptcy analyst or paralegal. USTP policy requires that performance
reviews be conducted at least once every 2 years. According to the UST
Manual, the goal of the review is to provide panel trustees with a written
assessment of their performance, including their overall competency,


       31
           An asset case is a case where the debtor has sufficient non-exempt assets to
allow for payments to creditors.

       32
           Region 9 had 15 trustee interim report reviews that were not completed (Detroit –
1, Grand Rapids – 3, Columbus – 1, and Cincinnati – 10) and 2 (Cleveland) where there was
no evidence that the reviews were performed. Region 17 had 5 trustee interim report
reviews not completed (Sacramento – 3, Oakland – 1, and San Jose – 1) and 1 (San
Francisco) where there was no evidence that the review was performed. Region 18 had 1
trustee interim report review that was not completed (Montana) and 1 (Eugene) where
there was no evidence that the review was performed.

                                          - 19 -
adherence to fiduciary standards, and commitment to pursue assets for the
benefit of creditors.

      The performance review is organized around 15 separate duties of the
trustee, with rating factors that mirror the audit and field examination
opinions of adequate, adequate except for, and inadequate. The
performance review categories are: (1) No Distribution Reports; (2) Trustee
Final Reports and Trustee Distribution Reports; (3) Meetings of Creditors
(§341 Meetings); (4) Securing estate property; (5) Legal administration;
(6) Annual financial reports and operating Chapter 7 reports; (7) Case
progress; (8) Banking; (9) Bonding; (10) Distribution to creditors;
(11) Response to audits; (12) Response to UST; (13) Investigation of and
response to bankruptcy fraud and abuse; (14) Response to public
complaints; and (15) Retention and compensation of professionals.

       The USTP relies heavily on the trustee performance review as another
method of oversight for panel trustees. We reviewed the case files of the 54
panel trustees selected in the 4 regions we visited and examined 90
performance reviews and found that the regional UST offices we visited
maintained the written performance reviews. The table below shows the
distribution of the overall ratings for the 90 performance reviews we
examined; of which only one of the 54 panel trustees received an
inadequate rating.

       TABLE 8: BIENNIAL PERFORMANCE REVIEWS FOR SAMPLE
        OF 54 PANEL TRUSTEES AT THE FOUR REGIONS VISITED
                            PERFORMANCE REVIEW RATINGS
                                     “Adequate,                TOTAL
        UST                            Except   “Inadequate Performance
   Region Visited         “Adequate”   For” 33       ”        Reviews

9 (Cleveland)                   20               11                0                31
16 (Los Angeles)                12                5                1                18
17 (San Francisco)              14                2                0                16
18 (Seattle)                    23                2                0                25
                TOTAL           69               20                1                90
Source: UST and EOUST files

     In addition to our examination of the performance reviews for the
sampled 54 panel trustees, we asked the EOUST whether any panel trustees

       33
           This category identifies audits where the auditor concluded that the trustee’s
internal controls were generally adequate, but had noted one or more exceptions.



                                           - 20 -
were removed from the panel or had resigned during our review period due
to poor performance. According to the EOUST, a total of 75 panel trustees
were either terminated or resigned. Of that total, 48 (64 percent) were
related to the panel trustees’ performance. 34 These statistics underscore the
importance of performance reviews and how the USTP utilizes these reviews
as part of its oversight responsibilities.

Conclusion

      According to the USTP, its oversight duties are an ongoing process that
begins when a panel trustee is assigned to a case and continues throughout
the administration and closure of the case. Toward that end, the USTP has
established an oversight regimen that includes audits performed by
independent CPAs, field examinations performed by UST field staff, trustee
interim report reviews, and trustee performance reviews.

       Overall, we determined that the USTP’s system of audits and reviews
to monitor Chapter 7 panel trustees was generally adequate to ensure the
integrity of the bankruptcy system. We found that CPA audits were
conducted every 8 years, in accordance with USTP policy. However, in
26 percent of cases we found that field examinations were either not
conducted timely or not completed at all. In several instances panel
trustees operated for up to 8 years without any on-site review of their
activities. Out of a total of 433 field examinations conducted or scheduled
during the review period, the regional USTs failed to complete field
examinations in a timely manner for 111 panel trustees or 26 percent. Both
audits and field examinations are important oversight tools for the USTP in
that they are designed to identify deficiencies in a panel trustee’s operation
that indicate weaknesses in the internal control structure and the potential
for fraud. These reviews are the primary tools used by the USTP to suspend
or remove a panel trustee whose performance is found to be inadequate for
the safeguarding of debtors’ assets. We also noted that annual trustee
interim report reviews were not always performed or consistently
documented. The trustee interim report reviews are important to the USTP
in that they allow the regional field offices to assess panel trustee
performance in the years between CPA audits and UST field examinations.
Failure to complete field examinations and trustee interim report reviews in
a timely manner may allow problems with a panel trustee’s case
administration to go undetected.



       34
          The remaining 27 panel trustees resigned or were terminated for the following
reasons: 15 – inadequate field examinations, 6 – inadequate CPA or OIG audits,
5 – unresolved background checks, and 1 – inability to obtain sufficient bonding.

                                          - 21 -
Recommendations:

     We recommend that the EOUST:

1.   Ensure that panel trustees receive either a CPA audit or a UST field
     examination every 4 years in accordance with USTP policy.

2.   Ensure that regional USTs complete annual trustee interim report
     reviews for all panel trustees in accordance with USTP policy.




                                   - 22 -
II.   DEBTOR OVERSIGHT

      To assess the USTP’s compliance with certain provisions of the
      BAPCPA, we reviewed the program’s implementation of means
      testing and debtor audits, both of which are requirements of the
      legislation. Based on our sample review of means tests and
      observation of the review process at the UST field offices, we
      concluded that the USTP had adequate controls in place to
      ensure that means testing was conducted on all Chapter 7 and
      Chapter 13 bankruptcy filings as required by the BAPCPA.
      Similarly, we found that debtor audits conducted by contract CPA
      firms were being conducted in accordance with the BAPCPA.
      Based on the work performed in both means testing and debtor
      audits, we concluded that the debtor oversight provided by the
      USTP was in accordance with requirements of the BAPCPA.
      However, with regard to means testing, we raise a caution that if
      bankruptcy filings rise to pre-BAPCPA levels it could require a
      significant reallocation of regional UST resources from other
      activities, including field examinations to means testing. Failure
      to plan for such an occurrence could compromise the USTP’s
      ability to provide oversight of panel trustee activities.

       As noted earlier, most provisions of the Bankruptcy Abuse Prevention
and Consumer Protection Act of 2005 (BAPCPA) took effect on October 17,
2005. According to the EOUST, Congress enacted the BAPCPA, in part, to
curtail perceived abuses of the bankruptcy system by debtors. 35 To achieve
this objective, Congress amended §707(b) of the Bankruptcy Code to
change the pro-debtor presumption that existed prior to BAPCPA with an
approach that is designed to identify debtors who are abusing the
bankruptcy system.

      The impact of the legislative changes on the USTP was largely in the
area of debtor oversight and included a mandate requiring a screening
mechanism known as “means testing” on debtor income and expenses to
ensure that debtors qualified for bankruptcy protection. In addition, BAPCPA
required independent audits of debtors’ bankruptcy filings to ensure that the
information being submitted in a bankruptcy petition was accurate and
supported.




      35
          Mark A. Redmiles and Melissa R. Perry, “Means Testing Under the New Bankruptcy
Law,” United States Attorneys’ USA Bulletin, August 2006, 20.

                                        - 23 -
Means Testing

      According to the BAPCPA, all individuals filing for bankruptcy relief
under Chapters 7 or 13 are required to complete a Statement of Current
Monthly Income and Means-Test Calculation (SCMI), Official Form 22A, and
submit it to the court along with the bankruptcy petition. 36 The SCMI
requires the debtor to provide the following information: (1) current
monthly income, (2) allowable deductions such as living expenses and future
payments on secured claims, and (3) the median family income for the state
in which the debtor resides. 37 Based on the information provided, a debtor
makes a self-assessment of eligibility for relief using a basic mathematical
formula that is built into the SCMI.

      Means testing refers to the process through which the USTP reviews
and, if necessary, verifies the information provided on the debtor’s SCMI,
the debtor’s bankruptcy petition, and supporting schedules to make a
determination as to whether the debtor qualifies for relief under Chapters 7
or 13 of the bankruptcy code. The BAPCPA requires that the USTP perform
means testing on all bankruptcies filed under Chapters 7 and 13.

        Our review of the means testing at the four regional UST offices we
visited found that the USTP had implemented a semi-automated process to
facilitate the performance of means testing. The Means Test Review (MTR)
system was implemented at the field office level to document the means
testing process for quality control purposes and to ensure the review of all
Chapter 7 bankruptcies filed, in accordance with the BAPCPA. 38 The MTR
system is linked to the USTP’s Automated Case Management System
(ACMS).

      The MTR system is used by the USTP to track bankruptcy filings
received from the U.S. Courts. Updated by the ACMS, the MTR system
contains current copies of Chapter 7 bankruptcy documents filed with the
court, including the debtors’ SCMI, bankruptcy petition, and supporting
schedules. However, while the documents are maintained electronically


       36
           There are two exceptions to debtors who must file the Official Form 22A:
(1) debtors whose debt is not primarily consumer debt; or (2) disabled veterans who
incurred their debt while on active duty or engaged in a homeland defense activity. A copy
of the Official Form 22A is shown in Appendix IX.
       37
           The BAPCPA defines current monthly income as “the average monthly income
from all sources that the debtor receives without regard to whether such income is taxable
income.” The average is based on the 6-month period preceding case commencement.
       38
            Chapter 13 cases are performed and tracked separately from Chapter 7 cases.

                                           - 24 -
through the MTR system, the actual review of the documents and analysis of
the financial data contained in those documents is a manual process.

Means Testing Methodology

      To address the large volume of bankruptcy filings requiring means
testing, UST field offices have developed a triaged approach to means
testing based on the complexity of the case. In applying this methodology,
most regional UST field offices have established a two-tiered system of
review.

       The tier-one review is designed to quickly assess and eliminate from
further analysis those means tests where the results clearly demonstrate
that the debtor is eligible for protection under the bankruptcy code. The
main determining factor in establishing a presumption of abuse is the
debtor’s current monthly income as reported on the SCMI. Generally, if the
debtor’s monthly income is less than that of the median family income as
determined by the U.S. Census Bureau for the debtor’s state of residence,
then a presumption of abuse does not exist and the means test is
concluded. 39 Because tier-one reviews require only a cursory analysis of the
filing documents, the review is performed by support staff, usually
paralegals and legal clerks. UST field staff stated that approximately
90 percent of all means tests are concluded at the tier-one level. We were
not able to verify this percentage because the UST offices and the EOUST did
not maintain statistics on how many means tests were completed after a
tier-one review and how many were referred to the tier-two analysis.

      The second-tier review includes all cases where additional analysis is
required to make a determination as to whether a presumption of abuse
exists on the part of the debtor. USTP policy requires that UST field staff
performing tier-one reviews should confer with paralegals, bankruptcy
analysts, or trial attorneys if any questions arise as to whether a case should
be closed or referred for a tier-two review.

      Tier-two reviews are performed primarily by USTP professional staff,
usually bankruptcy analysts and attorneys. The reviews involve further fact
finding, analysis, and usually require the reviewer to contact the debtor’s
attorney, financial institutions, and other parties to the bankruptcy to obtain
the necessary information to determine whether a presumption of abuse
exists.


      39
          The USTP posts the median family income data published by the U.S. Census
Bureau on its website at www.usdoj.gov/ust under Bankruptcy Reform - Means Testing
Information.

                                        - 25 -
      Under Section 704(b)(1)(A) of the Bankruptcy Code, the regional UST
must file a statement with the court indicating that a case is presumed
abusive within 10 days of the date on which the Section 341 Meeting of
Creditors occurs. 40 In order to meet the 10-day deadline, the USTP policy
requires that field offices initiate their means testing no later than 7 calendar
days following the Section 341 Meeting.

      We selected a judgmental sample of 40 tier-two reviews in progress at
the time of our field visits and followed up with the regional USTs to
determine the outcome of the reviews. 41

      TABLE 9: DISPOSITION OF TIER-TWO MEANS TESTING
FOR SAMPLE SELECTED AT FOUR UNITED STATES TRUSTEE REGIONS
  Disposition              UST            UST              UST             UST
       of               Region 9      Region 16         Region 17       Region 18
   Tier-Two            (Cleveland,   (Los Angeles,    (San Francisco,    (Seattle,
Means Testing 42          Ohio)        California)      California)     Washington)      Totals
Discharged                  6               5                9                8              28
Dismissed                   2               3                0                1                 6
Converted to
Chapter 13                  0               2                1                1                 4
Voluntary Removal           0               0                0                0                 0
Motion to Dismiss           2               0                0                0                 2
            TOTALS         10              10               10               10              40
Source: UST Files

       When we asked UST field office staff how many means tests were
completed at each tier level, UST staff said they believe approximately
90 percent of means tests are concluded at the tier-one level without a
presumption of abuse. An additional 1 to 2 percent of filings at the tier-two
level are found to be non-abusive upon further review. For the remaining 8

       40
           The Section 341 Meeting of Creditors, sometimes referred to as “First Meeting of
Creditors,” is intended to provide an opportunity early in the case for creditors, a panel
trustee, and the United States Trustee (UST) to ask questions of the debtor. The regional
UST appoints an interim panel trustee for the case, but creditors may have the right to elect
a different individual for the duties.
       41
          We judgmentally selected 10 means tests at the tier-two level from each of the 4
regional UST field offices that we visited.

       42
          “Discharged” means that the debts have been discharged and the case is being
administered as a Chapter 7 case. “Dismissed” means that the debtor does not qualify for
bankruptcy protection under Chapter 7. “Motion to dismiss” means that the UST has filed a
motion before the U.S. Bankruptcy Court to dismiss the case, but there was no final ruling
as of December 2007.

                                           - 26 -
to 9 percent in which a presumption of abuse is concluded, the regional UST
field office must file a statement with the court.

Effect of Means Testing Activities on Other Responsibilities

       Based on our sample review of means tests and observation of the
means testing process, we concluded that the USTP had adequate controls in
place to ensure that means testing was conducted on all Chapter 7 and
Chapter 13 bankruptcy filings, as required by the BAPCPA. However, during
our review EOUST officials and UST field staff raised concerns regarding the
level of resources that would be required to remain in compliance with the
BAPCPA’s means testing requirements should bankruptcy filings return to
their pre-BAPCPA levels (i.e., before FY 2006). The steady growth in
bankruptcy filings up until passage of the BAPCPA in October 2005 are
shown in the table below.

                     CHART 1: CHAPTER 7 AND 13 FILINGS FOR
                        FISCAL YEARS 2002 THROUGH 2007

             2,000
             1,800
             1,600                                                                                    1,776
                                                         1,651




                                                                                1,608
                                   1,536




             1,400
                                                                                        1,346
 Thousands




             1,200
                                           1,177




                                                                  1,154




             1,000                                                                                                        1,106
                     1,084




              800
                                                                                                              833




                                                                                                                                           795
              600
              400
                                                                                                                                     484
                                                   474
                             451




                                                                          454




                                                                                                429




                                                                                                                                  311


              200
                                                                                                                    273




                0
                     FY 2002               FY 2003               FY 2004                FY 2005               FY 2006             FY 2007
                                                           Quantity of Chapter 7 Filings
                                                           Quantity of Chapter 13 Filings
                                                           Total
Source: EOUST

       As indicated in the above chart, bankruptcy filings in 2007 were
roughly half the number of filings recorded in the 3 years leading up to
passage of the BAPCPA in October 2005. Even at 2007’s historically low
level of filings, however, efforts to achieve compliance with means testing
requirements appear to have had an impact on the USTP’s panel trustee
                                                                 - 27 -
oversight responsibilities. As mentioned in Finding 1, one of the main
reasons provided by both EOUST and regional UST officials for the failure to
perform UST field examinations and trustee interim report reviews in a
timely manner was the diversion of resources to means testing.

       While we could not confirm EOUST and UST officials’ assertions, it
appears to be a reasonable conclusion given that the bankruptcy analysts
who are responsible for performing field examinations and trustee interim
report reviews are also responsible for supervising tier-one means tests and
for performing the more complicated tier-two level means tests. In addition,
the fact that the decline in panel trustee oversight has coincided with the
increase in debtor oversight mandated by the BAPCPA lends credence to the
suggestion that there is a correlation. Therefore, return of bankruptcy filings
to their pre-BAPCPA levels could have a significant impact on the USTP’s
ability to provide effective oversight in key areas, specifically panel trustee
operations. Some EOUST officials believe that the decline in bankruptcy
filings is a short term phenomenon resulting from the passage of the
BAPCPA and that ultimately bankruptcy filings will return to their pre-
BAPCPA levels.

       We asked EOUST management whether they had conducted any
resource studies following implementation of means testing to determine
their current resource requirements in order to plan for future resource
requirements should filings return to pre-BAPCPA levels. We were told that
no such studies had been conducted.

EOUST Efforts to Streamline the Means Testing Process

      EOUST officials informed us that they were working with the
Administrative Office of the U.S. Courts (AOUSC) to streamline the filing
process through the introduction of standardized automated forms for
debtors filing for bankruptcy. According to the EOUST, the use of automated
forms would allow for the electronic sorting and analysis of the forms, which
would significantly streamline what is currently a manual review process.
EOUST officials explained that they had been working with the AOUSC to
require mandatory use of the “data enabled form standard” developed jointly
by the USTP and the AOUSC, which is compatible with the U.S. Bankruptcy
Court system. In September 2005, a final standard was issued. 43

      We spoke to AOUSC officials involved in the project, who
acknowledged that development of standardized automated forms would
benefit the USTP’s case management. However, the AOUSC expressed
concerns about the economic impact that the mandatory acquisition of the

      43
           Redmiles and Perry, “Means Testing Under the New Bankruptcy Law,” 28, 29.

                                         - 28 -
software necessary to generate such forms would have on the bankruptcy
industry, in particular the smaller private firms that assist debtors in the
filing process. Therefore, although the AOUSC agrees on a conceptual level
that the USTP may benefit from the automated forms, on a practical level
the AOUSC is hesitant to initiate a sweeping change out of concern for the
economic effect this may have on debtors and debtors’ attorneys.

      In our opinion, the EOUST needs to plan for the eventuality that
bankruptcy filings may return to their pre-BAPCPA levels. If this occurs
before the introduction of automated forms can be implemented, then UST
regional field offices may be faced with the need to divert greater resources
to means testing in order to remain in compliance with the BAPCPA. As
mentioned previously, failure to plan for this possibility may compromise the
USTP’s ability to provide effective oversight in other areas, in particular
panel trustee oversight.

      As part of our review, we attempted to quantify the impact of means
testing on the USTP’s resource allocation. While USTP officials said tier-one
reviews can be completed in 5 to 10 minutes, they could not provide
estimates for tier-two means testing. 44

Debtor Audits

       Section 603(a)(1) of the BAPCPA required the USTP to establish a
system of audits to determine the accuracy, veracity, and completeness of
petitions, schedules, and other information that the debtor is required to
provide in cases filed under Chapters 7 or 13, beginning with cases filed on
or after October 20, 2006. 45 Section 603 also requires that audits be
performed by independent CPAs or independent licensed public accountants.
At the time of our review, the EOUST had contracted with six CPA firms to
perform debtor audits. 46



       44
            Based on conversations with the 10 UST regions that posted the most bankruptcy
filings in FY 2007, 5 to 10 minutes was generally how long it took for the tier-one review to
be completed.
       45
           Section 603(a) of the BAPCPA required that audits be conducted in accordance
with generally accepted auditing standards but allowed the Attorney General to develop
“alternative auditing standards” not later than 2 years after the date of enactment. The
EOUST developed alternative auditing standards, which were published in the Federal
Register, Volume 71, No. 190, dated October 2, 2006.

       46
          These contracts with CPA firms were separate from the contracts the EOUST had
with CPA firms to conduct audits of panel trustees discussed in Finding 1.



                                           - 29 -
       Under the BAPCPA, the selection of audits for review is to be done on
both a random and a non-random basis: (1) random audits are to be
selected to ensure that not less than 1 out of every 250 cases in each
federal judicial district is selected for audit, and (2) non-random audits are
to be selected for cases where the debtor’s income or expenses deviate
significantly from the statistical norm of the district in which the schedules
were filed.

       Once the selection is made, the EOUST notifies the CPA firm and the
applicable regional UST. The regional UST then sends formal notification to
the debtor’s attorney or the debtor in pro se cases that the case has been
selected for audit, and identifies the documents to be provided to the CPA
firm. 47 Documents audited include the bankruptcy petition and
accompanying schedules. Additional documentation may include tax
returns, pay stubs, bank statements, and credit card statements. The CPA
firm reviews the documents provided, giving the debtor time to provide a
written explanation for any potential material misstatements before an audit
report is issued to the regional UST.

       Depending on the results of the audit, the independent auditor issues
either a “report of audit” or a “report of no audit”. A report of no audit is
issued when the audit firm receives no response from the debtor, an
insufficient response from the debtor, or the case is dismissed before a
sufficient response is received. Each report of audit is filed with the court
and transmitted to the regional UST, and can include no findings or may
include material misstatements. Material misstatements are generally
defined as the underreporting or omission of a debtor's assets. This may
include, but is not limited to monthly income, bank accounts, personal
property, and real property.

      The BAPCPA requires certain follow-up on the part of the regional UST
in response to debtor audits. If the debtor does not cooperate or the nature
of the findings warrant, the regional UST may seek a dismissal of a case or
denial of a debtor’s discharge from bankruptcy. The regional UST is required
to report material misstatements to the local United States Attorney when
the regional UST office has reason to believe that a debtor is attempting to
commit fraud.

      We verified the process through which the audits were selected and
concluded that they were selected in accordance with the criteria established
by the BAPCPA. According to EOUST records, of the roughly 795,000
Chapter 7 and 13 filings recorded in FY 2007, the EOUST selected 4,095

       47
          A debtor in a pro se case is one who files for bankruptcy protection without using
the services of an attorney.

                                           - 30 -
cases for audit. The table below shows the number of cases that resulted in
debtor audits.

TABLE 10: DEBTOR AUDITS SELECTED AND CONDUCTED IN FY 2007
                                                                    Non-
                                                     Random        random
                                                     Debtor        Debtor
                                                     Audits 48     Audits 49       Total
  Cases Selected for Audit                              3,161            934         4,095
  Debtor Audits with Reports Issued                      1,900            709         2,609
  Debtor Audits in Progress                              1,063            152         1,215
  Reports of No Audit Filed 50                             198             73           271
                                       TOTALS           3,161            934         4,095
Source: EOUST

      Of the 2,609 debtor audits that were completed in FY 2007, 780
(30 percent) included at least one material misstatement. In the 4 regions
we visited, we selected a judgmental sample of 12 debtor audits that had
resulted in audit reports with material misstatements. We verified that the
regional UST offices were performing follow-up procedures in accordance
with the BAPCPA.

       According to the EOUST, CPA firms identified suspected criminal
activity on the part of the debtor in 37 of the 2,609 debtor audits completed
in FY 2007. When suspected criminal activity is identified, the regional UST
is notified. After further review by the regional UST, the debtor’s case can
be referred to the U.S. Attorney’s Office for possible prosecution. The table
below shows the disposition of the 37 debtor audits identified by the CPA
firms as having suspected criminal activity.



       48
            The random audits represented 1 of every 250 of the total Chapter 7 and 13
filings in FY 2007.
       49
          Non-random audits are judgmentally selected by the EOUST based on the
debtor’s reported income or expense that exceed the statistical norm for the judicial district
in which the debtor resides.
       50
          Reports of no audit filed represents cases where the CPA firm does not receive
requested information from the debtor or debtor’s attorney to allow for the audit of the
debtor’s petition. As a result, the CPA firm files a “Report of No Audit” with the EOUST and
the regional UST office follows up with the debtor or debtor’s attorney. If the debtor or
debtor’s attorney does not provide the necessary documentation that is requested as part of
a Debtor’s Audit, the case may be dismissed.

                                            - 31 -
             TABLE 11: DEBTOR AUDITS WITH SUSPECTED
                         CRIMINAL ACTIVITY
                                                   Number
                                                      of
                                                    Debtor
               Description of Disposition           Audits
 Cases Determined by Regional UST to have insufficient
 evidence of suspected criminal activity                                 12
 Cases Still Under Review at Regional UST                                10
 Cases Referred to U.S. Attorney’s Office:
   Prosecution declined by U.S. Attorney’s Office                         2
   With Investigative Agency                                              8
   Under review in U.S. Attorney’s Office                                 5
 Total Cases Referred to U.S. Attorney’s Office                          15
                                                     TOTAL               37
 Source: EOUST

Conclusion

      We reviewed the USTP’s oversight activities in the areas of means
testing and debtor audits, both of which are mandated by the BAPCPA. We
found that regional UST field offices were conducting means tests on
bankruptcy filings in accordance with the legislation. We also found that the
EOUST contracted with CPA firms to meet the BAPCPA requirement to
conduct debtor audits. In FY 2007, 2,609 debtor audits were completed, of
which 780 identified at least one material misstatement. According to the
sample we selected, we were able to determine that the regional UST offices
followed up on audits that included material misstatements.

       We noted that the USTP’s effort to achieve compliance with means
testing requirements is resource intensive. Should bankruptcy filings
increase significantly and approach their pre-BAPCPA levels, the diversion of
resources required to maintain means testing compliance may significantly
affect the USTP’s ability to provide timely and comprehensive oversight of
panel trustee operations.




                                      - 32 -
Recommendations:

     We recommend that the EOUST:

3.   Continue to work with the Administrative Office for United States
     Courts to require mandatory use of the jointly developed “data-
     enabled form standard.”

4.   Formulate a plan addressing allocation of resources, prioritization of
     duties, and streamlining of processes in order to meet means testing
     requirements in the event of a significant increase in bankruptcy
     filings.




                                   - 33 -
This page intentionally left blank.




              - 34 -
                                                                 APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of the audit were: (1) to determine if the USTP is
providing adequate monitoring and oversight of Chapter 7 panel trustees
and (2) to assess the USTP’s compliance with requirements of the BAPCPA
with regard to implementation of the means test and debtor audits.

Scope and Methodology

      We conducted the audit in accordance with the Government Auditing
Standards and included the tests and procedures necessary to accomplish
our objectives. Our testing included, but was not limited to the period
between October 1, 2005, and September 30, 2007.

      We performed on-site audit work between March and August 2007 at
EOUST headquarters in Washington, D.C., and at regional and district offices
in Los Angeles and San Francisco, California; Seattle, Washington; and
Cleveland, Ohio.

     To accomplish our objectives we:

     •   researched and reviewed applicable laws, policies, regulations,
         manuals, and memoranda;

     •   interviewed officials at EOUST and regional UST field offices;

     •   obtained and analyzed statistical data maintained by EOUST;

     •   reviewed the means testing process at four regional UST field
         offices;

     •   reviewed debtor audits resulting in material misstatements at four
         regional UST field offices to assess UST follow-up;

     •   reviewed 23 CPA audit reports and 25 UST field examinations,
         including all audit reports and UST field examinations with
         inadequate opinions during the review period at the 4 regional UST
         offices to assess UST follow-up; and

     •   examined UST regional field office case files to determine whether
         trustee performance reviews and trustee interim report reviews
         were performed and documented and to assess UST follow up.

                                    - 35 -
                                                        APPENDIX II


                                ACRONYMS


ACMS     Automated Case Management System

AUST     Assistant United States Trustee

BAPCPA   Bankruptcy Abuse Prevention and Consumer Protection Act of
         2005

EOUST    Executive Office for United States Trustees

NDR      No Distribution Report

SCMI     Chapter 7 Statement of Current Monthly Income and Means-test
         Calculation

TDR      Trustee Distribution Report

TFR      Trustee Final Report

UST      United States Trustee

USTP     United States Trustee Program




                                  - 36 -
         APPENDIX III




- 37 -
         APPENDIX IV




- 38 -
- 39 -
- 40 -
- 41 -
         APPENDIX V




- 42 -
                                                             APPENDIX VI

                 SAMPLE COPY OF CPA AUDIT REPORT

     This is a sample copy of the audit report that the CPA firms issue upon
completion of a Chapter 7 panel trustee audit.




                       U.S. DEPARTMENT OF JUSTICE



                                   AUDIT
                                  REPORT



                                name
                         CHAPTER 7 TRUSTEE
                  BANKRUPTCY ESTATE ADMINISTRATION

                           ANYTOWN, ANYSTATE
                              UST REGION __


                                 Date issued




                                   - 43 -
                                     Name
                              CHAPTER 7 TRUSTEE
                       BANKRUPTCY ESTATE ADMINISTRATION

                                       INTRODUCTION

        Audit firm, Certified Public Accountants, have completed an audit of the administrative
and cash management procedures followed by chapter 7 trustee name. Our purpose was to
assess the quality of the trustee’s accounting for bankruptcy estate assets and related cash
management practices and procedures. Our review focused on the trustee’s most recent interim
reporting period ending ____________. The fieldwork was conducted on _______________ by
___________________.

Scope and Methodology

       The audit was performed under an agreement with the Executive Office for United States
Trustees (EOUST), in accordance with its Statement of Work. The audit was conducted in
accordance with government auditing standards for performance audits, except as noted below.

       ·       The audit report is issued to the U.S. Trustee rather than to the auditee.

       ·       The report contains no recommendations and is issued closed.

       ·       Findings are limited to identification of criteria and conditions.

        In our opinion, these departures from government auditing standards have no adverse
effect on the audit results.

        The scope of the audit generally encompassed a review of the trustee’s: (1) asset
administration and case progress review; (2) receipts and disbursements; (3) segregation of
duties; (4) banking; and (5) computer operations and file maintenance. The audit did not include
a review of the trustee’s automated data processing system as a whole. However, computer
generated data was compared to other independent sources. We also tested assets and
transactions that occurred during the trustee’s interim reporting period.

        At the end of the latest interim reporting period, _________________, the trustee
reported a total of ___ asset cases; ____ cases had cash balances totaling $_________ and ____
cases did not have funds. The trustee’s caseload was not confirmed with the Clerk of the Court.
Therefore, we cannot provide assurance that all cases assigned to the trustee were accounted for
in the interim report.

       The cases selected for testing are listed in Appendix I. We contacted the Office of the
United States Trustee on January X, 200X. All information provided by the Office was
considered in planning the work to be performed during the audit.




                                              - 44 -
       Background

        Name has served as a trustee under the U.S. Trustee program since ____________. [He]
OR [she] [is] OR [is not] currently on the U.S. Trustee’s active rotation for receiving new
chapter 7 cases. At the time of our review, the trustee was conducting his/her bankruptcy-related
duties from his/her [law office] OR [business office] located at _________________.

        Trustee name’s administration of bankruptcy estates was previously audited in ____ by
[the Department of Justice’s Office of the Inspector General] OR [an independent CPA firm]. In
addition, the U.S. Trustee previously reviewed the trustee’s administration of bankruptcy estates
and issued its UST Field Examination Report dated ___________. [The findings previously
reported did not recur in the current audit.] OR [Previously reported weaknesses were found
again in the current audit. These findings are so identified in the main body of the report.]

                                       AUDIT RESULTS

       In our opinion, the trustee’s accounting and cash management practices and procedures
were adequate for the safeguarding of bankruptcy estate funds in accordance with the Handbook
for Chapter 7 Trustees, except for:

       ·       __________________________________________
       ·       __________________________________________
       ·       __________________________________________

        Our opinion is based on the transactions tested. Our audit was more limited than would
be necessary to express an opinion of the trustee’s bankruptcy operations as a whole. However,
aside from the preceding, nothing came to our attention for the transactions not tested to indicate
that the trustee’s accounting and cash management practices were not adequate. The items listed
above and other findings are discussed in the following sections of this report and are listed in
Appendix IV.

Asset Administration and Case Progress Review

We reviewed the assets and cases listed on Appendix I and found that the trustee’s asset
administration and case progress review procedures were in compliance with the Handbook for
Chapter 7 Trustees.

or

We reviewed the assets and cases listed on Appendix I and found that the trustee’s asset
administration and case progress review procedures were generally in compliance with the
Handbook for Chapter 7 Trustees, except for the following:




                                              - 45 -
1.     The trustee’s system for reviewing case progress did not indicate the date of the trustee’s
       review (Handbook page 8-42). While we were able to determine that the trustee was
       periodically reviewing case progress, we could not determine that the review was
       performed at least quarterly. The trustee stated that he will document his timely
       performance of the case progress review in the future.

2.     In case XX-XXXXX (__________), we noted that the trustee failed to actively pursue
       collections for an account receivable in the amount of $________ (Handbook pages 8-10,
       9-18 to 9-19). Per discussion with the trustee, he/she believes that the account receivable
       is collectible. However, a demand letter was not sent as of the date of fieldwork; the case
       was filed on __________. The trustee explained that he/she plans to file suit
       ______________; however, he/she acknowledged that a letter should have been sent
       shortly after he/she was named trustee to the case.

3.     In case XX-XXXX (_________), the following assets listed on the petition were not
       recorded on Form 1: cash, office equipment and furnishings, and inventory (Handbook
       pages 9-9, Forms-3 to 4). This type of weakness was reported in the prior UST Field
       Examination. The trustee made the corrections and provided a new Form 1 during our
       field work.

Receipts and Disbursements

We reviewed ____ receipts and ___ disbursements and found that the related internal control,
record keeping, and financial reporting requirements were in compliance with the Handbook for
Chapter 7 Trustees.

or

We reviewed ____ receipts and ___ disbursements and found that the related internal control,
record keeping, and financial reporting requirements were in compliance with the Handbook for
Chapter 7 Trustees, except for the following:

4.     In case XX-XXXXX (__________), the auctioneer remitted funds net of the auctioneer
       commission without court order (Handbook page 8-27). The trustee advised that this was
       the first time the trustee used this auctioneer and will advise the auctioneer that this
       practice can only be used if specifically authorized by court order.

5.     In case XX-XXXXX (_________), a November 21, 2004 receipt in the amount of
       $10,000 for the settlement of a fraudulent conveyance action did not appear on Form 1.
       Additionally, no asset reference number and no Uniform Transaction Code were recorded
       for this receipt on Form 2. The correct asset reference number is #15. The correct UTC
       is 1241-000. (Handbook pages Forms-6 and Forms-9). The trustee acknowledged the
       finding.




                                             - 46 -
6.     Four of the ____ receipts reviewed were not recorded on the receipts log. This type of
       weakness was reported in the prior UST Field Examination. (Handbook page 9-1).
       XX-XXXX1 MMDDYY $_______                    XX-XXXX2 MMDDYY $_______
       XX-XXXX3 MMDDYY $_______                    XX-XXXX4 MMDDYY $_______

       These receipts were received directly by the trustee at § 341(a) meetings and did not
       come through the mail. The trustee agreed that these receipts should have been included
       on the receipts log.

Segregation of Duties

We reviewed the segregation of duties within the trustee’s office, including the matrix provided
by the trustee (and reproduced herein at Appendix II), and found that the trustee operation was in
compliance with the requirements set forth in the Handbook for Chapter 7 Trustees.

or

We reviewed the segregation of duties within the trustee’s office, including the matrix provided
by the trustee (and reproduced herein at Appendix II), and found that the trustee operation was in
compliance with the requirements set forth in the Handbook for Chapter 7 Trustees, except for
the following:

7.     Trustee Assistant #1 performed some of the duties that the trustee is required to perform
       per the Handbook at page 9-13. Specifically, the assistant opened the bank statements
       and reviewed the statements and canceled checks for unusual items before giving them to
       the trustee to review. In addition, the assistant was responsible for setting up passwords
       and changing security access controls for the trustee’s computerized case management
       system. The trustee said he/she was not aware that these functions must be personally
       performed by the trustee.

Banking

The trustee’s internal controls and procedures relating to bank accounts were in compliance with
the Handbook for Chapter 7 Trustees.

or

The trustee’s internal controls and procedures relating to bank accounts were in compliance with
the Handbook for Chapter 7 Trustees, except for the following:

8.     In case XX-XXXXX (___________), funds totaling $96,000 have been on deposit in a
       savings account for 18 months (Handbook page 9-3). The trustee should have considered
       higher yielding investments. During fieldwork, the funds were invested in a certificate of
       deposit.

9.     In case XX-XXXXX (__________), we noted that the December 31, 2004, bank
       reconciliation omitted a significant reconciling item. The $750 item cleared the bank but
       was not recorded on Form 2. (Handbook pages 9-10, 9-14, and Forms-8). The trustee

                                             - 47 -
       said he/she would investigate and make the appropriate corrections. Further, the trustee
       said that he/she would ensure that all reconciliations were complete in the future.



Computer Operations and File Maintenance

Computer operations and file maintenance were in compliance with the requirements stated in
the Handbook for Chapter 7 Trustees. Access to, and use of, the ______________ software is
controlled according to the computer access matrix at Appendix III.

or

Computer operations and filed maintenance were generally in compliance with the requirements
stated in the Handbook for Chapter 7 Trustees, except for the following:

10.    We noted that the trustee did not develop or maintain a comprehensive written disaster
       recovery plan for estate financial and administrative records and for the computer system
       data (Handbook page 9-23). The trustee explained that there are ways to recover the
       records; however, the procedures are not documented. The trustee is currently in the
       process of writing a plan.

11.    The Chapter 7 computer records were not backed-up daily (Handbook page 9-21). The
       computer records were backed-up weekly and a copy was stored off-site.

Access to, and use of, the ______________ software is controlled according to the computer
access list in Appendix III. However, as previously noted, the ability to set up and change
passwords and other access controls is not limited to the trustee. See Finding # 7.

Views of Responsible Officials

        During our audit and particularly at the exit conference, we solicited the comments of the
trustee. His/her comments have been incorporated into the appropriate sections in the body of
the report.




                                             - 48 -
                               CASE AND ASSET SAMPLES

The following cases and assets/dispositions were reviewed:

       Case Number            Case Name                       Asset/Disposition
 1.    XX-XXXXX         Any Name                  Preference Claim/Settlement
 2.    XX-XXXXX         Any Name                  Real Estate/Auction To be Held
 3.    XX-XXXXX         Any Name                  Accounts Receivable/Fully Collected
 4.    XX-XXXXX         Any Name                  Real Estate/Abandoned
 5.    XX-XXXXX         Any Name                  Tax Refund/To Be Collected
 6.    XX-XXXXX         Any Name                  Furnishings & Fixtures/Abandoned
 7.    XX-XXXXX         Any Name                  Automobile/Held For Sale
 8.    XX-XXXXX         Any Name                  Rents/Collection
 9.    XX-XXXXX         Any Name                  Fraudulent Conveyance/Under
                                                  Investigation
 10.   XX-XXXXX         Any Name                  Collectibles/Auction Held
 11.   XX-XXXXX         Any Name                  Accounts Receivable/Partially Collected
 12.   XX-XXXXX         Any Name                  Inventory/Under Investigation
 13.   XX-XXXXX         Any Name                  Personal Injury Action/Awaiting Settlement
 14.   XX-XXXXX         Any Name                  Investment in Private Company
                                                  Stock/Under Investigation
 15.   XX-XXXXX         Any Name                  Bank Account/Fully Collected




                                            - 49 -
                                SEGREGATION OF DUTIES MATRIX

                       Duties                             Responsible Persons   Remarks
                                        Initials:   Trustee
a    Receives mail
b    Opens mail

c    Endorses checks for deposit only
d    Records receipts in receipts log
e    Posts receipts to Form 2
f    Prepares deposits
g    Mails or makes deposits at bank
h    Compares, on test basis, receipts log to
     bank statements*
i    Prepares disbursements
j    Posts disbursements to Form 2
k    Reviews supporting documents*
l    Authorizes disbursements*
m    Has custody of blank check stock
n    Signs checks*
o    Mails checks

p    Receives unopened bank statements*
q    Reviews bank statements*
r    Opens bank accounts
s    Closes bank accounts
t    Authorizes bank fund transfers
u    Arranges for stop payment orders on
     checks outstanding over 90 days
v    Authorizes stop payment orders*
w    Verifies payee information on stop
     payment; promptly re-issues the check
     Reconciles bank statements to:
x     - Form 2
y     - Receipts log
z    Reviews bank reconciliations*

aa   Prepares Forms 1, 2, & 3
bb   Accesses ADP system



                                                      - 50 -
                             COMPUTER ACCESS MATRIX

     User ID                User Name                       Remarks
1.
2.
3.
4.
5.
6.


                                            User’s Access
                                               Rating

                                        1   2   3 4   5     6   Remarks

     Rating;
     Y= Yes N= No
a.   Security maintenance
b.   Deactivate/reactivate cases
c.   Purge/archive cases
d.   Print checks

     Rating;
     I = Inquiry only
     C = Change, add and/or delete
e.   Assets
f.   Claims
g.   Checks
h.   Deposits
i.   Transfers
j.   Adjustments




                                        - 51 -
                                 LIST OF AUDIT FINDINGS


The trustee’s system for reviewing case progress did not indicate the date of the trustee’s review
       (Handbook page 8-42).

In case XX-XXXXX (__________), we noted that the trustee failed to actively pursue
        collections for an account receivable in the amount of $________ (Handbook pages 8-10,
        9-18 to 9-19).

In case XX-XXXX (_________), the following assets listed on the petition were not recorded on
        Form 1: cash, office equipment and furnishings, and inventory (Handbook pages 9-9,
        Forms-3 to 4). This type of weakness was reported in the prior UST Field Examination.

In case XX-XXXXX (__________), the auctioneer remitted funds net of the auctioneer
        commission without court order (Handbook page 8-27).

In case XX-XXXXX (_________), a November 21, 2004 receipt in the amount of $10,000 for
        the settlement of a fraudulent conveyance action did not appear on Form 1. Additionally,
        no asset reference number and no Uniform Transaction Code were recorded for this
        receipt on Form 2. The correct asset reference number is #15. The correct UTC is 1241-
        000. (Handbook pages Forms-6 and Forms-9).

Four of the ____ receipts reviewed were not recorded on the receipts log (Handbook page 9-1).
       This type of weakness was reported in the prior UST Field Examination.

Trustee Assistant #1 performed some of the duties that the trustee is required to perform per the
       Handbook at 9-13.

In case XX-XXXXX (___________), funds totaling $96,000 have been on deposit in a savings
        account for 18 months (Handbook page 9-3).

In case XX-XXXXX (__________), we noted that the December 31, 2004, bank reconciliation
        omitted a significant reconciling item. The $750 item cleared the bank but was not
        recorded on Form 2. (Handbook pages 9-10, 9-14, Forms-8)

We noted that the trustee did not develop or maintain a comprehensive written disaster recovery
      plan for estate financial and administrative records and for the computer system data
      (Handbook page 9-23).

The Chapter 7 computer records were not backed-up daily (Handbook page 9-21.




                                             - 52 -
                                                                   APPENDIX VII

             EXAMPLES OF CONSEQUENTIAL DEFICIENCIES
                         United States Trustee Program
                        Audit of Chapter 7 Panel Trustees
                      Examples of Consequential Deficiencies

Banking                                     Disbursements

1. Commingled funds                         1. Disbursement without court
2. Unauthorized depository                  authorization
3. Missing bank statements                  2. No supporting documentation
4. Missing canceled checks                  3. Checks not pre-numbered
5. Case funds not invested appropriately    4. Blank checks not adequately
6. Inability to perform an accounting       controlled
“proof of cash”                             5. Unauthorized disbursements by
7. Improper or unauthorized bank            cashier’s check or wire transfer
account transfers or unexplained            6. Blank checks pre-signed by trustee
transactions on bank statements             7. Checks altered or contain unusual
8. Incomplete or missing bank               endorsement
reconciliations                             8. Checks written to cash

Receipts                                    Asset Administration

1. Incoming checks not restrictively        1. Assets not tracked on Form 1
endorsed upon receipt                       2. Assets not timely investigated to
2. Receipts log not maintained              determine value to the estate
3. Receipts not deposited, or deposited     3. Case assets not promptly
untimely                                    inventoried, secured, or collected
4. Sales/liquidations without notice or     4. Untimely asset liquidations
court order                                 5. Assets overlooked, lost stolen, or
5. No supporting documentation              not adequately accounted for
                                            6. Trustee does not adequately
Recordkeeping                               supervise auctioneer, liquidator,
                                            collection agent, attorney, or other
1. Non-existent reports                     person hired to collect or liquidate
2. Asset or disposition of asset omitted    assets
from the Form 1                             7. Assets sold to insiders or related
3. Financial transaction omitted from the   parties
Form 2                                      8. No system to monitor case progress
4. Inaccurate information on the Form 2     on a quarterly basis

ADP System                                  Other Internal Controls

1. Passwords not utilized or changed        1. Trustee does not adequately
2. ADP system not adequately protected      supervise employees
3. No routine back up procedures            2. Case files are disorganized
                                            3. Case files are missing


                                      - 53 -
                                                             APPENDIX VIII

            ANALYSIS OF OVERDUE UST FIELD EXAMINATIONS
                         Year of
                        Last Audit     FY Field
                       (A) or Field   Exam Was    FY of Actual     Years
   Panel Trustee        Exam (FE)        Due      Field Exam      Overdue

Region 1
  Panel Trustee 1       2002 (A)        2006         2007            1

Region 2
   Panel Trustee 2      2000 (A)        2004         2006            2
   Panel Trustee 3      2002 (A)        2006         2007            1
   Panel Trustee 4      2000 (A)        2004         2005            1
   Panel Trustee 5      2002 (A)        2006         None            2
   Panel Trustee 6      2002 (A)        2006         2007            1
   Panel Trustee 7      2000 (A)        2004         2007            3
   Panel Trustee 8      2002 (A)        2006         None            2
   Panel Trustee 9      2000 (A)        2004         2005            1
  Panel Trustee 10        2001          2005         2007            2
  Panel Trustee 11      2000 (A)        2004         2006            2
  Panel Trustee 12      1999 (A)        2003         2006            3
  Panel Trustee 13      2002 (A)        2006         2007            1
  Panel Trustee 14      2000 (A)        2004         2005            1
  Panel Trustee 15      1999 (A)        2003         2005            2
  Panel Trustee 16      1999 (A)        2003         2006            3
  Panel Trustee 17      1999 (A)        2003         2005            2
  Panel Trustee 18      1998 (A)        2002         2006            4
  Panel Trustee 19      2000 (A)        2004         2006            2
  Panel Trustee 20      2001 (A)        2005         2007            2

Region 3
  Panel Trustee   21    2001   (A)      2005         2007            2
  Panel Trustee   22    2002   (A)      2006         None            2
  Panel Trustee   23    2001   (A)      2005         2006            1
  Panel Trustee   24    1999   (A)      2003         2006            3
  Panel Trustee   25    2000   (A)      2004         2006            2
  Panel Trustee   26    2000   (A)      2004         2006            2
  Panel Trustee   27    2000   (A)      2004         2007            3
  Panel Trustee   28    1999   (A)      2003         2006            3



                                      - 54 -
                          Year of
                        Last Audit     FY Field
                       (A) or Field   Exam Was    FY of Actual    Years
   Panel Trustee        Exam (FE)        Due      Field Exam     Overdue
  Panel Trustee 29       2000 (A)       2004          2006          2
  Panel Trustee 30       2000 (A)       2004          2007          3
  Panel Trustee 31       2000 (A)       2004          2007          3
  Panel Trustee 32       appt 2/02      2006          2007          1
  Panel Trustee 33       2000 (A)       2004          2007          3
  Panel Trustee 34       2001 (A)       2005          2007          2
  Panel Trustee 35       2000 (A)       2004          2007          3
  Panel Trustee 36       2000 (A)       2004          2005          1
  Panel Trustee 37       2000 (A)       2004          2006          2
  Panel Trustee 38       2001 (A)       2005          2006          1
  Panel Trustee 39       2001 (A)       2005          2006          1
  Panel Trustee 40       1999 (A)       2003          2007          4

Region 5
  Panel Trustee 41      2000 (A)        2004         2006           2
  Panel Trustee 42      2000 (A)        2004         2005           1

Region 6
  Panel Trustee   43    2000   (A)      2004         2005           1
  Panel Trustee   44    2001   (A)      2005         2007           2
  Panel Trustee   45    1999   (A)      2003         2006           3
  Panel Trustee   46    2001   (A)      2005         2007           2
  Panel Trustee   47    2001   (A)      2005         None           3

Region 7
  Panel Trustee   48    2000   (A)      2004         2005           1
  Panel Trustee   49    2000   (A)      2004         2005           1
  Panel Trustee   50    2000   (A)      2004         2005           1
  Panel Trustee   51    2001   (A)      2005         2006           1

Region 8
  Panel Trustee 52      2000 (A)        2004         2005           1

Region 9
  Panel Trustee 53      1999 (A)        2003         2004           1
  Panel Trustee 54      2001 (A)        2005         2007           2
  Panel Trustee 55      1997 (A)        2001         2005           4



                                      - 55 -
                          Year of
                        Last Audit     FY Field
                       (A) or Field   Exam Was    FY of Actual    Years
   Panel Trustee        Exam (FE)        Due      Field Exam     Overdue
  Panel Trustee 56        2002 (A)      2006          2007          1
  Panel Trustee 57        2002 (A)      2006         None           2
  Panel Trustee 58        2001 (A)      2005          2007          2
  Panel Trustee 59        2002 (A)      2006         None           2
  Panel Trustee 60        2002 (A)      2006          2007          1
  Panel Trustee 61        2001 (A)      2005          2006          1
  Panel Trustee 62        2001 (A)      2005          2007          2
  Panel Trustee 63        2002 (A)      2006          2007          1
  Panel Trustee 64        2002 (A)      2006          2007          1
  Panel Trustee 65        2001 (A)      2005          2006          1
  Panel Trustee 66       appt 1998      2002          2006          4
  Panel Trustee 67       2002 (FE)      2006          2007          1
  Panel Trustee 68        2001 (A)      2005          2006          1
  Panel Trustee 69        2002 (A)      2006         None           2

Region 10
  Panel Trustee   70     2001(A)        2005         2006           1
  Panel Trustee   71    2002 (A)        2006         None           2
  Panel Trustee   72    2002 (FE)       2006         2007           1
  Panel Trustee   73    2002 (A)        2006         2007           1
  Panel Trustee   74    2002 (A)        2006         None           2
  Panel Trustee   75    2001 (A)        2005         2006           1
  Panel Trustee   76    2002 (A)        2006         2008           2
  Panel Trustee   77    2001 (A)        2005         2006           1

Region 11
  Panel Trustee 78      2002 (A)        2006         2007           1
  Panel Trustee 79      2001 (A)        2005         2007           2

Region 13
  Panel Trustee 80      2002 (A)        2006         2007           1
  Panel Trustee 81      2001 (A)        2005         2006           1

Region 14
  Panel Trustee 82      2002 (A)        2006         None           2




                                      - 56 -
                          Year of
                         Last Audit     FY Field
                        (A) or Field   Exam Was    FY of Actual    Years
   Panel Trustee         Exam (FE)        Due      Field Exam     Overdue
Region 16
  Panel Trustee 83       1999 (A)        2003         2005           2
  Panel Trustee 84       2001 (A)        2005         2006           1
  Panel Trustee 85       2001 (A)        2005         2006           1

Region 17
  Panel Trustee   86     1999 (A)        2003         2005           2
  Panel Trustee   87     2000 (A)        2004         2005           1
  Panel Trustee   88     2001 (A)        2005         2006           1
  Panel Trustee   89     2002 (FE)       2006         2007           1
  Panel Trustee   90     1999 (A)        2003         2006           3
  Panel Trustee   91     2000 (A)        2004         2006           2
  Panel Trustee   92     2000 (A)        2004         2006           2
  Panel Trustee   93     2002 (A)        2006         2007           1
  Panel Trustee   94     2000 (A)        2004         2007           3
  Panel Trustee   95     2002 (A)        2006         2007           1

Region 18
  Panel Trustee 96         2000          2004         2005           1

Region 19
  Panel Trustee 97       2001   (A)      2005         2006           1
  Panel Trustee 98       2001   (A)      2005         2006           1
  Panel Trustee 99       2000   (A)      2004         2005           1
 Panel Trustee 100       2002   (A)      2006         2007           1

Region 20
 Panel Trustee    101     1999 (A)       2003         2006           3
 Panel Trustee    102   appt 9/01/01     2005         None           3
 Panel Trustee    103       2000         2004         2005           1
 Panel Trustee    104     2002 (A)       2006         2007           1
 Panel Trustee    105     2000 (A)       2004         None           4
 Panel Trustee    106     1998 (A)       2002         2006           4
 Panel Trustee    107     2000 (A)       2004         2007           3




                                       - 57 -
                           Year of
                          Last Audit     FY Field
                         (A) or Field   Exam Was    FY of Actual    Years
  Panel Trustee           Exam (FE)        Due      Field Exam     Overdue
Region 21
 Panel Trustee 108           2000         2004         2005           1
 Panel Trustee 109           2000         2004         2005           1
 Panel Trustee 110         2000 (A)       2004         2005           1
 Panel Trustee 111           2000         2004         2005           1
Source: OIG analysis of EOUST data




                                        - 58 -
         APPENDIX IX




- 59 -
- 60 -
- 61 -
- 62 -
- 63 -
- 64 -
                   APPENDIX X

AUDITEE RESPONSE




     - 65 -
- 66 -
- 67 -
- 68 -
- 69 -
                                                               APPENDIX XI


        OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

        We provided a draft audit report to the EOUST for review and
  comment. The EOUST’s comments, which detail the actions it has taken or
  plans to implement in response to our recommendations, have been included
  as Appendix X to this report.

       This Appendix summarizes our analysis of the EOUST’s comments and
  proposed actions required to close the report.

  Recommendations:

  1.   Resolved. The EOUST agreed with this recommendation and
       enumerated seven steps that it intends to take, including the issuance
       of guidance to the field to reinforce policies and stress the need to
       meet deadlines and the design and implementation of a tracking
       system for field examinations and Trustee Interim Report reviews. In
       addition, the EOUST also stated that it plans to modify performance
       work plans for program managers to address compliance with trustee
       oversight protocols. This recommendation can be closed when we are
       provided evidence that the corrective action described in the EOUST’s
       seven steps have been implemented.

  2.   Resolved. The EOUST agreed with this recommendation and
       enumerated seven steps that it intends to take, including the issuance
       of guidance to the field to reinforce policies and stress the need to
       meet deadlines and the design and implementation of a tracking
       system for field examinations and Trustee Interim Report reviews. In
       addition, the EOUST also stated that it plans to modify performance
       work plans for program managers to address compliance with trustee
       oversight protocols. This recommendation can be closed when we are
       provided evidence that the corrective action described in the EOUST’s
       seven steps have been implemented.

  3.   Resolved. The EOUST agreed with this recommendation and stated
       that it will continue to cooperate with the AOUSC and encourage the
       courts to adopt the jointly developed data-enabled form as a
       mandatory standard. The EOUST also stated that the Judicial
       Conference of the United States will address the issue of the data-
       enabled form standard in the near future. In order to close this


                                    - 70 -
     recommendation, please provide to us the results of the Judicial
     Conference report. In addition, please provide to us the AOUSC’s
     response to the EOUST’s proposed options to mitigate the impact of
     mandatory data-enabled forms on bankruptcy practitioners. Finally,
     please provide to us the proposed agenda to move the issue of data-
     enabled forms forward based on the AOUSC’s response to the EOUST’s
     proposed options.

4.   Resolved. The EOUST agreed with this recommendation and
     enumerated five steps that it intends to take, or has already taken,
     including the development of a plan to address expanded
     responsibilities and diminished resources as well as issuance of
     guidance on streamlining for means testing. In addition, the EOUST
     plans to conduct a study of the means testing process to identify
     where opportunities exist for further streamlining. The EOUST also
     plans to incorporate an evaluation of compliance with streaming
     initiatives into the USTP’s peer review process. This recommendation
     can be closed when we receive evidence that the corrective action
     described in the EOUST’s five steps have been implemented.




                                  - 71 -
